<html>
<title> - THE IMPACT OF HURRICANES KATRINA AND RITA ON THE NATIONAL WILDLIFE REFUGE SYSTEM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
  THE IMPACT OF HURRICANES KATRINA AND RITA ON THE NATIONAL WILDLIFE 
                             REFUGE SYSTEM

=======================================================================

                           OVERSIGHT HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, March 16, 2006

                               __________

                           Serial No. 109-45

                               __________

           Printed for the use of the Committee on Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
26-654                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Henry Brown, Jr., South Carolina     Mark Udall, Colorado
Thelma Drake, Virginia               Dennis Cardoza, California
Luis G. Fortuno, Puerto Rico         Stephanie Herseth, South Dakota
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado
Vacancy

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                  SUBCOMMITTEE ON FISHERIES AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
        FRANK PALLONE, JR., New Jersey, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
  Vice Chair                         Neil Abercrombie, Hawaii
Walter B. Jones, Jr., North          Solomon P. Ortiz, Texas
    Carolina                         Ron Kind, Wisconsin
Thelma Drake, Virginia               Madeleine Z. Bordallo, Guam
Luis G. Fortuno, Puerto Rico         Nick J. Rahall II, West Virginia, 
Bobby Jindal, Louisiana                  ex officio
Marilyn N. Musgrave, Colorado
Richard W. Pombo, California, ex 
    officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Thursday, March 16, 2006.........................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     2
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey....................................     3
        Prepared statement of....................................     3

Statement of Witnesses:
    Daulton, Michael, Director of Conservation Policy, National 
      Audubon Society............................................    42
        Prepared statement of....................................    43
    Hall, H. Dale, Director, Fish and Wildlife Service, U.S. 
      Department of the Interior.................................     4
        Prepared statement of....................................     6
    Hirsche, Evan, President, National Wildlife Refuge 
      Association................................................    37
        Prepared statement of....................................    39
    Moore, W. Parke, III, Assistant Secretary, Office of 
      Wildlife, Louisiana Department of Wildlife and Fisheries...    27
        Prepared statement of....................................    31
    Richard, David M., Executive Vice-President, Stream Property 
      Management.................................................    48
        Prepared statement of....................................    50
    Young, Don A., Executive Vice President, Ducks Unlimited.....    18
        Prepared statement of....................................    21


 OVERSIGHT HEARING ON THE IMPACT OF HURRICANES KATRINA AND RITA ON THE 
                    NATIONAL WILDLIFE REFUGE SYSTEM.

                              ----------                              


                        Thursday, March 16, 2006

                     U.S. House of Representatives

                  Subcommittee on Fisheries and Oceans

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 9:58 a.m. in 
Room 1324, Longworth House Office Building, Hon. Wayne T. 
Gilchrest [Chairman of the Subcommittee] presiding.
    Present: Representatives Gilchrest, Kind, Pallone.

 STATEMENT OF THE HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. The hearing will come to order. I want to 
thank Mr. Hall, Fish and Wildlife Service, and the other 
witnesses for coming here today to testify to the massive 
destruction, albeit a lot of it is nature's way of randomly 
deciding the configuration of the planet I would guess, but in 
human terms quite an extraordinary catastrophe where many of 
the refuges down there, homes to just a myriad of splendid and 
wonderful species, a number of which are endangered, have been 
for the most part utterly and completely displaced.
    We know it will cost hundreds of millions of dollars to 
repair not only the refuge areas, but the infrastructure that 
is part of those refuge areas. Many of the people who have 
lived and worked down there, many of them were in Fish and 
Wildlife, have lost their homes.
    I want to compliment the Fish and Wildlife Service. Having 
visited the region in I guess it was October and November, all 
the Federal people down in that area, especially the Fish and 
Wildlife folks, responded in an extraordinary fashion, and they 
responded in the way that you would expect people to respond.
    They didn't wait for an order. They didn't wait for a memo. 
They didn't wait for anybody to make a phone call. They just 
got the boats out of their backyard, drove down that highway 
and actually rescued thousands of people, so it was an 
extraordinary display of a community where the integrity was 
intact.
    I want to compliment you, Mr. Hall, for all the people in 
your Service that have done that and then collaborated as well 
with people in NOAA and USGS, state folks, local folks. It 
didn't matter what the identification was in your wallet, just 
that people joined hands and did an extraordinary amount of 
work.
    What we would like to do today during this hearing is to 
understand in a more specific way the items that we need to 
address with a sense of urgency and the kind of money that 
needs to do that and maybe even perhaps change some of the 
regulatory or Federal statutes so this kind of thing can be--I 
don't know if it could be any smoother given the initiative and 
ingenuity that people displayed, but we will see what we can do 
to complement your actions.
    [The prepared statement of Mr. Gilchrest follows:]

       Statement of The Honorable Wayne T. Gilchrest, Chairman, 
                  Subcommittee on Fisheries and Oceans

    Good morning. Today, the Subcommittee will conduct an oversight 
hearing on the effects of Hurricanes Katrina and Rita on units of the 
National Wildlife Refuge System in the Gulf Coast region.
    While it did not receive a great deal of media attention, 33 
National Wildlife Refuges in Alabama, Louisiana and Mississippi 
suffered varying degrees of damage because of Hurricanes Katrina and 
Rita. When these two massive category 5 hurricanes slammed into the 
Gulf Coast they left behind some 1,400 victims, $85 billion in property 
damages and the destruction of thousands of acres of critical wildlife 
habitat. From my own observations, I would describe the devastation as 
catastrophic, unbelievable and eerily similar to what I saw in Banda 
Aceh, Indonesia, after the tsunami.
    Over large areas, every tree was brown and every leaf was blown 
off. Nearly 50 percent of the vegetation at the Breton National 
Wildlife Refuge in Louisiana, which was established in 1904, is gone. 
Prior to these storms, Breton provided nesting habitat to 15 percent of 
the world's brown pelicans and 30 percent of its sandwich terns. At the 
Bayou Sauvage Refuge, which is located within the New Orleans levee 
system, its 22,000 acres were inundated with brackish salt water.
    Furthermore, these hurricanes destroyed critical habitat for a 
number of Federally listed species including the endangered Alabama 
beach mouse, red-cockaded woodpeckers and loggerhead sea turtles. The 
hurricanes obliterated refuge visitor's centers, environmental and 
interpretive buildings, administrative offices, refuge roads and 
bridges, wildlife trails, hundreds of acres of timber and miles of 
coastal barriers. These storms were the worst to ever strike the 
National Wildlife Refuge System and the cumulative cost of Katrina, 
Rita and Hurricane Wilma now exceeds $200 million dollars.
    On February 16th the President submitted a new supplemental 
appropriation request that would provide $132.4 million to the U.S. 
Fish and Wildlife Service. Specifically, these emergency funds would be 
designated for clean-up and facility repair. While I strongly support 
this request, it is critical that this money also be available for 
resource restoration. In my view, it is short sighted to simply repair 
the physical structures without revitalizing the habitat for which 
these refuges were created for in the first place. We must fix the 
coastal barriers, wetlands and timber habitats which are vital to the 
survival of thousands of species.
    The purpose of this hearing is to try to quantify the amount and 
type of damage done to National Wildlife Refuges in the Gulf; to 
examine the Federal strategy for repairing, restoring and replacing 
resources within the units; and to identify how much additional Federal 
funds beyond the $132 million may be needed to be appropriated in the 
future to rebuild this unique system of public lands.
    Finally, I would like to compliment the leadership of the Fish and 
Wildlife Service and its outstanding employees for their heroic efforts 
in saving lives, clearing roads and improving the lives of those 
citizens who continue to endure the hardships of Hurricanes Katrina and 
Rita. The Fish and Wildlife Service was there to ease their pain and 
suffering.
    I now recognize the Ranking Minority Member, Congressman Frank 
Pallone of New Jersey.
                                 ______
                                 
    Mr. Gilchrest. I will now yield to the gentleman from New 
Jersey.

 STATEMENT OF THE HON. FRANK PALLONE, JR., A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. I am going to submit 
my full statement for the record because I know that we want to 
get moving here this morning.
    I am not going to repeat the things that you have said 
about the devastation of lives and the communities and the 
environment along the Gulf Coast as a result of the hurricane 
and the fact that there were so many cases where people really 
valiantly did what they had to do to try to help people and 
save people's lives and property.
    I wanted to commend you for convening the hearing. Many of 
these affected refuges, after all, helped define the very 
fabric of the region and contributed to the characterization of 
the State of Louisiana particularly as a sportsmen's paradise.
    Because of the scale of devastation and because Federal and 
state resources are limited, recovery of the environment in 
general and restoration of fish and wildlife habitats 
specifically are likely to slip from the list of priorities. I 
think the most important thing that we could state today is 
that we can't let that happen.
    It is unimaginable that we should leave to chance a matter 
of such national importance and vital significance to the 
future recovery of the Gulf Coast, and I think greater 
attention should be directed to the impact of the hurricanes on 
Gulf refuges, and that is why I think this hearing is an 
important first step.
    The scale of destruction at these refuges may be immense. 
Moreover, the costs for recovery may be daunting, but we can't 
shrink from our responsibility to restore these priceless 
refuge lands, and hopefully we will learn more today about how 
we can help.
    Thank you.
    [The prepared statement of Mr. Pallone follows:]

      Statement of The Honorable Frank Pallone, Ranking Democrat, 
                  Subcommittee on Fisheries and Oceans

    Thank you, Mr. Chairman. The vivid images broadcast by both network 
and cable news channels that conveyed the total devastation of lives, 
communities and the environment along the Gulf Coast as a result of 
Hurricanes Katrina and Rita made an indelible impression in the minds 
of millions of Americans. And that stark impression was that this 
region will never be the same again.
    Few people might realize it, but that impression might just as 
easily apply to the several National Wildlife Refuges that line the 
Gulf Coast from the Texas/Louisiana border across to the Florida 
panhandle.
    For example, it is my understanding that the Breton National 
Wildlife Refuge--formerly an offshore, low-lying chain of coastal 
islands valued as nesting habitat for endangered migratory birds and 
sea turtles--was virtually wiped off the charts by Hurricane Katrina. 
Not to be outdone, Hurricane Rita left debris piles--one six miles long 
and wider than the Washington Mall--littered across the Sabine National 
Wildlife Refuge.
    For this reason, Mr. Chairman, and because of the fact that our 
National Wildlife Refuges remain our preeminent system of Federal lands 
devoted to the protection and conservation of wildlife, I commend you 
for convening this morning's hearing. Many of these affected refuges, 
after all, helped define the very fabric of the region and contributed 
to the characterization of Louisiana as a ``Sportsman's Paradise.''
    Because of the scale of the devastation, and because Federal and 
State resources are limited, recovery of the environment in general, 
and restoration of fish and wildlife habitat specifically, are likely 
to slip from the list of priorities. Yet we cannot let that happen. It 
is unimaginable that we should leave to chance a matter of such 
national importance and vital significance to the future recovery of 
the Gulf Coast.
    Greater attention should be directed to the impact of these 
hurricanes on Gulf refuges, and Mr. Chairman, this hearing is an 
important first step. The scale of destruction at these refuges may be 
immense. Moreover, the costs for recovery may be daunting. Yet we 
cannot shrink from our responsibility to restore these priceless refuge 
lands. Thank you.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Pallone.
    I would also ask unanimous consent that my full statement 
be entered into the record.
    Mr. Hall, and I guess you have one of your staff along with 
you today, Mr. Hamilton. Welcome.
    Mr. Hall, you may begin.

  STATEMENT OF H. DALE HALL, DIRECTOR, U.S. FISH AND WILDLIFE 
SERVICE, U.S. DEPARTMENT OF THE INTERIOR; ACCOMPANIED BY SAM D. 
 HAMILTON, SOUTHEAST REGIONAL DIRECTOR, U.S. FISH AND WILDLIFE 
            SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Hall. Thank you, Mr. Chairman, Mr. Pallone. I would 
like to introduce Sam Hamilton, who is our Regional Director 
out of the Southeast. They really orchestrated the response for 
the whole Fish and Wildlife Service. If there are specific 
details that are needed, I have asked him to be here to help 
out.
    I ask that my written testimony be entered into the record 
in its entirety.
    Mr. Gilchrest. Without objection.
    Mr. Hall. In order to make use of the best time that we 
have here, I would like to focus on just three areas, the first 
one being our people, the second one being the impacts that 
were felt on the national wildlife refuges, and the third being 
what we hope is a future course to move forward.
    I could not be prouder of the people in the Fish and 
Wildlife Service. You know, I described this once before as 
being we led, followed or got out of the way, whatever was 
needed. When it came time to rescue people, our folks got in 
boats and assisted in rescuing 4,500 people.
    When it came time to follow, we picked up chainsaws, and we 
cleared roads and driveways and found people literally where 
their respirators, the generators running the respirators, were 
about to run out of gas and helped people get the help that 
they desperately needed and also helped clear the pathway to 
the Heart Hospital so that patients and the medical centers 
could work.
    When it came time to get out of the way, we opened our Big 
Branch Marsh National Wildlife Refuge as a headquarters for all 
the other workers to come in, take a shower and rest and have 
laundry. We served 35,000 meals.
    In the midst of all this, we had 50 employees that were 
significantly impacted. Some of them lost everything, just like 
everyone else down there did or a lot of people did, and yet 
the very next morning they showed up to work and said what can 
we do to help.
    The second area is in the impacts that occurred. We have 
130 national wildlife refuges in the southeast, and about 66 of 
those were impacted. We also had three national fish hatcheries 
and about 12 other offices down there that were impacted.
    On the refuges we lost things from administrative buildings 
to water control structures and everything in between, damage 
to levees. We had significant impacts from toxic materials, oil 
drums, et cetera, debris from refrigerators to things that you 
just wouldn't expect to see on a national wildlife refuge.
    If you will allow, I will quickly show some slides when I 
am finished if that is appropriate.
    Mr. Gilchrest. I think that is fine. We will get the 
pictures back up there.
    Adrian, if you can turn the lights off? The timing lights. 
Leave the lights on the camera. There you go. Thanks.
    [Slide.]
    Mr. Hall. We had in some cases we estimated 115,000 to 
350,000 gallons of unknown toxic gases and substances in drums, 
et cetera, we were finding on the refuge in addition to all of 
the refuse that was blown in.
    Just basically every aspect of the national wildlife 
refuges from levees to roads to trails to the buildings were 
impacted, equipment, and then at the same time we have had the 
aftermath to deal with.
    Now, Congress appropriated $30 million in a supplemental 
for us to get going, and we have been working diligently to 
implement those dollars on pretty important projects. They will 
all be obligated and spent by Labor Day.
    The President has requested a $132 million additional 
supplemental that could help us get after a lot of this 
aftermath, and we have earmarked about $20 million of that, 
should it be appropriated, for toxic cleanup to begin the 
effort. It is very difficult to say how much it will exactly 
cost because of getting contractors and getting out on the 
ground.
    The third thing though, and we can give you more details on 
all of these if you would like. The third thing is where should 
we be going? The future of the coast of Louisiana, Texas, 
Alabama, Mississippi and Florida is almost certain to 
experience additional hurricanes. The question is how do we 
deal with them?
    One of the things that is not recognized that the national 
wildlife refuges provided in Hurricanes Katrina, Rita and Wilma 
were buffer strips for the communities. As devastating as the 
damage was, how much worse would it have been had those 
marshes, wetlands and structures not been there to help slow 
the storm down?
    The U.S. Geological Survey has published literature that 
says for every 2.7 miles that a hurricane travels across 
marshes, estuaries and structures like oyster reefs, the 
stormwater surge is reduced by one foot. Louisiana used to have 
about 100 miles of solid meandering bayous and oyster reefs and 
marshes that went down south of New Orleans. At that rate, the 
storm surge would have been close to nothing had all those 
marshes been there in their healthy condition.
    We tend to think of wetlands and marshes as being wonderful 
places for birds and fish and amphibians and reptiles and the 
kinds of wildlife that we need there and production of 
shellfish and the economy. That is only a portion of what they 
do. They provide significant storm protection.
    As Oliver Houck, a professor at Tulane University, has 
said, those marshes are equitable to horizontal levees. In my 
words, I have said that these marshes, they are the protection 
for the levees, and the levees are the protection for the 
people.
    Any structure that is built for flood protection as we move 
forward and for damage abatement we believe must have 
additional restoration and creation of marshes and wetlands to 
help slow the storms down so that America's investment in those 
structures is protected.
    In my own personal opinion, I don't believe that it is 
possible to provide hurricane Level 5 protection to the City of 
New Orleans or anyone along the Gulf Coast without the 
protective buffers of the marshes and the wetlands to slow the 
storms down. We simply can't do it with just manmade structures 
alone. We need to let nature help us provide the buffer that 
she always provided.
    Those antebellum homes that were destroyed in Gulfport and 
Biloxi that have lasted 200 years, we need to ask ourselves why 
did this Category 5 storm cause the damage when those other 
Category 5 storms like Camille didn't. Those homes lived 
through that, and at least my observation is the loss of 48 
square miles of marsh in Louisiana in the 1970s and the 1980s 
and our efforts to reduce that to only 24 square miles per year 
loss is the reason.
    We need to figure out how to open up that river sediment 
that is not flowing off the edge of the Continental Shelf that 
used to build the marshes and let them go back there and start 
rebuilding the marshes again. Anything that we can do to help 
you there, we want to do it.
    Mr. Chairman, I won't go on because I could easily get on a 
soapbox here, and I don't want to do that. It is very important 
for us to remember that no structure along the Gulf Coast in 
our opinion can survive unless it has its protection in the 
marshes and the wetlands.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Hall follows:]

 Statement of H. Dale Hall, Director, U.S. Fish and Wildlife Service, 
                    U.S. Department of the Interior

    Mr. Chairman, Members of the Committee, my name is H. Dale Hall and 
I am the Director of the U.S. Fish and Wildlife Service. Thank you for 
the opportunity to discuss the devastating effect Hurricanes Katrina 
and Rita have had on our national wildlife refuges and other valuable 
natural resources across the Gulf Coast from the Florida panhandle 
through Louisiana and the East Texas coast.
    On behalf of all of our employees, I think it's important to say 
here that we recognize we've got many challenges ahead. We know there 
are still significant needs across the Gulf Coast that our employees 
and many others are working hard to try to meet. Thousands of citizens 
are still reeling from the emotional trauma of losing loved ones, 
homes, and other personal belongings. Our own employees are among them. 
We are under no illusions about the breadth of need out there.
    The first priority should always be the well being of citizens 
affected by these storms. And as the people of Louisiana, Mississippi, 
Alabama, and Texas pick up the pieces and begin putting their lives 
back together, we want to be ready when they once again have the time 
to enjoy national wildlife refuges and other natural places to hunt, 
fish, hike, canoe, and watch the amazing wildlife we are working with 
partners to conserve and restore.
    But I also want to emphasize that Refuges played another 
significant role during the storms: the natural resource hit they 
absorbed helped lessen the danger to people and structures. While the 
damage remained significant, how much worse would it have been without 
the storm buffering effects of the remaining coastal wetlands and 
Refuges?
    When Katrina struck the Gulf Coast, our people responded in large 
numbers. They worked with others through the Incident Command Team and 
our National Interagency Fire Center to rescue more than 4,500 people, 
cleared more than 14 miles of roads, opened emergency corridors, and 
provided access to the Louisiana Heart Hospital for starters. Indeed, 
even as nearly 50 Service employees and their families lost much, if 
not everything, as thousands of other citizens did, our employees were 
out there almost immediately working to help others in need. Service 
employees continue to make outstanding contributions to the recovery 
effort across the Gulf Coast.

Damage to Service-Owned Facilities
    The Service has over 130 national wildlife refuges in the 
southeast, of which 66 were affected. Additionally, 3 national fish 
hatcheries and 12 other Service facilities were impacted. The majority 
of these Service-owned facilities were, at one time, closed due to the 
impact of the hurricanes. Most have since been reopened, albeit at a 
much reduced capacity to provide services. The exception is Sabine 
National Wildlife Refuge in southwestern Louisiana, which remains 
closed because of the presence of large piles of potentially hazardous 
debris that pose a risk to human safety. Examples of damages to refuge 
facilities include:
    <bullet>  Destruction of administrative buildings;
    <bullet>  Destruction of public facilities such as restrooms, 
boardwalks, and boat ramps;
    <bullet>  Destruction of roads and bridges;
    <bullet>  Breaching of levees and dikes;
    <bullet>  Loss of motor vehicles and vessels;
    <bullet>  Damage to water control structures; and
    <bullet>  Loss of office and maintenance equipment.

Damage to Natural Resources
    In addition to damaging and destroying Service facilities, the 
hurricanes wrought extensive damage on important natural resources 
throughout the region. Our National Wildlife Refuges were no exception. 
Beach dunes and coastal marshes that provide essential wildlife habitat 
and protect vital coastal infrastructure were washed away or severely 
eroded. Freshwater marshes that serve as nurseries for migratory 
waterfowl and important commercial fish species were inundated with 
salt water, exposed to ocean tides, or converted to open water. Severe 
winds leveled large tracts of forest that serve as important habitat 
for cavity nesting birds and other species. Specific examples sustained 
to natural resources on refuge lands include:
    <bullet>  Transformation of approximately 118 square miles of 
coastal wetlands and marshes to open water across Southeastern 
Louisiana. These wetlands once served as buffers that diminished the 
power and devastation of hurricanes and other storms;
    <bullet>  Breton NWR, one of the islands comprising the hard-hit 
Chandeleur barrier island chain, lost approximately 50 percent of its 
land mass;
    <bullet>  An estimated 234 square miles of coastal wetlands and 
bottomland forests have been damaged on national wildlife refuges. This 
represents expanses of coastal marshlands along the Louisiana/
Mississippi coast and important inland systems like the Atchefalaya 
basin;
    <bullet>  Primary and secondary dunes that protect inland areas and 
provide habitat for the Alabama beach mouse were destroyed, and beaches 
along the Alabama coast that normally host nesting sea turtles were 
washed away;
    <bullet>  More than 70 percent of cavity trees used by Red-cockaded 
Woodpeckers in Big Branch Marsh NWR were destroyed; and
    <bullet>  Thousands of acres of coastal and freshwater marshes were 
ripped, torn, or washed away impacting hundreds of acres of wintering 
habitat for a wide variety of migratory birds, waterfowl and aquatic 
organisms. For example, 70 percent of the continent's mottled ducks are 
found in coastal Louisiana and the Texas.
    Katrina and Rita have also impacted ecosystems that support many 
threatened and endangered species in ways that may not be readily 
apparent. The impact to highly imperiled freshwater mussels and gulf 
sturgeon in the rivers of Lake Pontchartrain and in the Pearl, 
Pascagoula, and Escambia River Systems has yet to be assessed. Rare 
natural dune systems that support endangered beach mice populations 
along the Gulf Coast have been heavily damaged by hurricanes two years 
in a row. Hurricane Katrina caused significant changes in some of the 
coastal habitats that support the recovering Gulf Coast population of 
listed brown pelicans. Though the full extent of this type of damage to 
our natural resources is not immediately measurable, we are working 
with colleagues at the United States Geological Survey, state fish and 
wildlife agencies, the U.S. Army Corps of Engineers, the Environmental 
Protection Agency, and conservation organizations like Ducks Unlimited 
and The Nature Conservancy to determine the full extent of impacts from 
the most devastating hurricane season in several decades.
    The loss of these valuable habitats and ecosystem functions is akin 
to losing functional levees. Tulane law professor Oliver Houck is 
attributed with calling the vast wetlands that once occurred between 
New Orleans and Grand Isle, Louisiana, as ``horizontal levees,'' as 
important, or more so, than the vertical levees built by man. It has 
long been recognized that oyster reefs, coral reefs, marshes, barrier 
islands and bottomland hardwood wetlands serve to dull the teeth of 
storms and their potential damage. Research has shown that for every 
2.7 miles a hurricane travels over these natural structures, the 
resulting storm surge is reduced by one foot. See U.S. Army Corps of 
Engineers, 1961 Interim Survey Report: Mississippi River Delta at and 
Below New Orleans, Louisiana. New Orleans District, December 29, 1961. 
Historically, a solid mass of wetlands, oyster reefs and slowly 
meandering bayous wove their way for nearly 100 miles from New Orleans 
south to the Gulf of Mexico. Over the past half century, that has 
changed.
    In the 1970's and 1980's, Louisiana coastal wetlands were being 
lost at a rate of up to 48 square miles per year. That loss has now 
been ``reduced'' to 24 square miles per year, a rate that simply cannot 
be sustained. Indeed, the trend needs to be reversed. As we move 
forward in addressing the significant challenges that face us in 
rebuilding the Gulf Coast, we must keep in mind that while levees 
protect people, wetlands protect both people and levees. Wetland 
restoration must be a part of any rebuilding plan if we are to address 
future risks to human safety.
    In the subsiding environment of coastal Louisiana, conversion of 
wetlands to open water has resulted in large areas of a system that no 
longer maintain their vertical elevation and vegetative cover. 
Unfortunately, those subsiding and ``deeper'' large areas of the 
Louisiana coastal ecosystem more efficiently transmit storm surges than 
would shallower, healthy vegetated areas that have maintained their 
elevation. Louisiana coastal marshes are geologically among the 
youngest lands in the United States. Historically fed by sediment laden 
waters from the Mississippi River, these marshes were in a continual 
building process. Since construction of the mainline Mississippi and 
Atchefalaya River levee system, however, the rich soils from over 30 
percent of the U.S. drainage are now being deposited off the edge of 
the continental shelf at a rate exceeding 10 tons per second.
    How to restore a semblance of the depositional functions of the 
river to the marshes will pose significant challenges, but challenges 
that must be met nonetheless. These challenges should be faced head on 
with the welfare of the American people as the constant goal. The 
effort, however, must be collaboratively orchestrated between the 
federal, state and local governments, and must include academia and 
professional organizations and societies. No long-term solution can be 
expected from any single entity, but must occur through cooperation and 
collaboration from a myriad of sources.

Debris Cleanup
    As previously mentioned, Sabine National Wildlife Refuge remains 
closed due to the vast amount of debris, including potentially 
hazardous debris that is piled throughout the marsh. It has been 
estimated that over nine million cubic yards of debris, including 
between 115,000 to 350,000 gallons of hazardous liquids and gases, are 
spread over 1,770 acres of marsh. While the problem is most severe at 
Sabine, other refuges, including Bayou Sauvage, Cameron Prairie, 
Lacassine, Bon Secour, and Delta are strewn with tons of debris 
including tractor trailer containers, household appliances, propane 
tanks, chemical drums, and organic material. Exact costs for removing 
this debris have yet to be determined, but the preliminary cost 
estimate for debris clean-up and recovery of subsurface tanks could 
range from $10 to $50 million at Sabine National Wildlife Refuge alone.
Supplemental Funding
    On September 21, the Service received the authority to transfer $10 
million in emergency funds for emergency operations. These funds were 
used to cover the cost of emergency management, including the cost of 
emergency teams that conducted Service recovery and relief efforts.
    In December, the Service received $30 million in supplemental 
funding for the repair and reconstruction of facilities necessary to 
restore operational capabilities. By Memorial Day, these funds will be 
obligated. The majority of these funds have been expended on projects 
such as:
    <bullet>  Over $4.7 million to repair the Maxent Levee at Bayou 
Sauvage NWR;
    <bullet>  Over $3 million per refuge to repair facilities at 
Loxahatchee NWR, Mississippi Sandhill Crane NWR and National Key Deer 
NWR;
    <bullet>  Over $700,000 to replace damaged vehicles and equipment 
at refuges throughout the region;
    <bullet>  Over $600,000 to repair roads and bridges at Big Branch 
Marsh NWR; and
    <bullet>  Over $300,000 per refuge to repair trails, boardwalks, 
campgrounds, fences, signs, docks and parking areas at Bayou Sauvage 
NWR, Big Branch Marsh NWR, and Bon Secour NWR
    In addition, the Administration has requested additional 
supplemental funding of $132.4 million for Service-related clean-up and 
facility repair needs. Projects that would be completed under this 
request include items such as:
    <bullet>  $30 million to repair levees, dikes and water control 
structures at Sabine NWR and Cameron Prairie NWR, and at Bayou Sauvage 
NWR, where the Maxent Levee not only provides wildlife habitat but also 
supports flood control for East New Orleans;
    <bullet>  Over $13 million to repair facilities, roads, and bridges 
at Mississippi Refuges;
    <bullet>  Over $24 million to remove hazardous and other debris at 
Sabine NWR and other refuges throughout the region;
    <bullet>  Over $9 million to repair facilities at Sabine NWR and 
over $11 million to repair facilities at other refuges throughout the 
region; and
    <bullet>  Over $3 million to repair public infrastructure at Sabine 
NWR and $2 million for beach renourishment at Breton NWR.
    A complete table of prioritized damages to be addressed with 
supplemental funding, both that which we have already received and that 
which has been requested, is included in the attached table.

Conclusion
    Mr. Chairman, our employees are working hard each day to aid in the 
recovery from last year's devastating storms. The supplemental funds we 
have received helped the Service conduct emergency operations and begin 
to restore operational capabilities to facilities throughout the Gulf 
Coast. The additional funds we have requested will help us address our 
most critical needs at the 81 Service-owned facilities impacted by 
hurricanes during the 2005 season, including 66 national wildlife 
refuges, three national fish hatcheries, and 12 other Service-owned 
facilities. In the coming years, we hope to restore our refuges to 
places Americans can come to hunt, fish, hike, canoe, and watch amazing 
wildlife, and we are ready to assist the States and private landowners 
in restoring the habitats that support healthy people, healthy 
wildlife, and a healthy economy.
    But as we make progress in all these areas, it must be understood 
that short term restoration efforts can only heal the present wounds. 
The long-term stability of the Gulf Coast, its people and its economy 
will depend on our willingness to face difficult problems that are long 
term in nature, recognize that no long-term solution will be effective 
without natural buffer restoration, and that legitimate risk analyses 
should drive economic and human safety decisions.
    Thank you again for the opportunity to be here. I would be happy to 
answer any questions you might have.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Hall. Washington is a 
soapbox. There are thousands of soapboxes around here with the 
staff and the Members.
    The members of the Fish and Wildlife Service, and there are 
numerous other Federal and state agency people down there that 
I am sure lost homes and vehicles and all kinds of things. Are 
you aware of any of the Fish and Wildlife Service people in 
that region, the Gulf region that was affected by the last 
couple of hurricanes, that are still finding it difficult to 
find a place to live?
    Mr. Hall. We know of about 16 that lost everything. I will 
ask Regional Director Hamilton if he knows what the status is 
of their assistance.
    Mr. Hamilton. We still have several folks that are living 
in trailers, FEMA trailers, and going through the insurance 
woes that so many other folks on the Gulf Coast are going 
through.
    We have folks primarily in the southeast Louisiana area, 
and we do have a few in southwest Louisiana, that are still 
displaced and in temporary accommodations.
    Mr. Gilchrest. Since they work for the Federal government, 
is there any advantage to working for the Federal government, 
knowing how to work the system? My wife always said I had 
better health insurance when I was a school teacher.
    Is the system, in your mind, for your employees, and then 
we will take the system that you are aware of with your 
employees as far as accommodations, insurance, response by FEMA 
and so on. That will be a reflection on the system as a whole 
for the most part I would guess.
    How is it working for your employees to get through the 
bureaucracy?
    Mr. Hall. Go ahead.
    Mr. Hamilton. That is a good question. I don't think there 
is much difference at all, quite honestly. These folks I think 
suffered just like everyone else down there. They are in 
various stages of trying to find housing.
    The Fish and Wildlife Service, we did our best. People 
rolled up their sleeves, collected donations and tried to 
accommodate as best we could as an organization to try to take 
care of our folks, but they stood in line like everybody else.
    It was kind of interesting, I think. Director Hall 
mentioned that the first thing they did was to try to secure 
their places, but really went out into the community and 
started helping other folks. I think they are treated just like 
everyone else.
    Mr. Gilchrest. All of you are to be commended.
    As far as the debris is concerned and the toxic materials, 
could you give us some idea how much can be buried onsite, how 
much has to be hauled away and how much is likely to be 
incinerated and then some ballpark estimate?
    Mr. Hall, you mentioned $20 million. Is that a good 
starting point? I don't think that would cover the problem.
    Mr. Hall. I think a lot of the non-toxic materials we will 
try and find places to haul them off or bury them, et cetera, 
where they won't have lingering environmental consequences.
    Mr. Gilchrest. Is the EPA helping with that, the Corps of 
Engineers helping with that? How does that work?
    Mr. Hall. Well, EPA and the Corps are working with us to 
try and help us determine toxicity and other things. We have 
some people on staff. You know, our Environmental Contaminants 
folks are with that.
    On the ground, they are working with us. We are working 
with everyone out there, but anything that is toxic will have 
to be carried off and properly disposed of. Incineration is a 
method being considered, but there is so much of that. We 
aren't sure how we can even find proper places to incinerate it 
all.
    The $20 million that is, in our view, sort of designated to 
begin that is a beginning. This is going to be a long-term 
process.
    Mr. Gilchrest. We are going down next week to look at some 
of the fisheries issues and some of the wetland issues. Maybe a 
followup trip just to look at the problem of debris would be in 
order.
    I think my time has probably expired. Before I yield to Mr. 
Pallone, the folks in the back can sit in the lower dais if you 
would like.
    Mr. Pallone?
    Mr. Pallone. Don't hesitate to come on up. You seem like 
you are hesitating. Really, it is fine.
    I just wanted to ask Mr. Hall. The Administration has 
requested $132 million in additional emergency appropriations 
for the refuges affected by the hurricanes, and along with the 
$30 million I guess supplemental appropriation Congress passed 
in December that is a total of $162 million. This figure is 
consistent with the earlier estimates made by Fish and Wildlife 
Service of damages to facilities, vehicles and public use 
facilities.
    My question is, is this number enough to fully restore the 
damaged refuges, because the Fish and Wildlife Service has also 
estimated there are almost $100 million in natural resource 
related costs from clearing down trees, monitoring of wildlife 
and habitat, so why has the Administration been reluctant to 
request monies for these important costs?
    Mr. Hall. First, you are correct that the $162 million was 
in the proximity of what our original estimates were.
    As I just mentioned earlier, I am not sure that anyone can 
tell you what the total costs are going to end up being. We are 
going with estimates that we have. We are doing the best we can 
on the structural type aspects, and then we frankly will come 
back and let people know how much it has taken care of and 
where we are.
    Contracting is a real issue on the Gulf Coast. Not only is 
it hard to get a contractor They are pretty proud of their work 
price. Things are costing us a little more money. It is a bid 
process, and we are trying to work on it. We will have to come 
back to you.
    The second part of your question, why hasn't the 
Administration supported the $100 million we think is therefore 
at least a first estimate on resource damages. I am not sure of 
the total answer for that, but I do know that the 
Administration, in looking at the natural resource issues, is 
trying to look at the myriad of natural resource issues along 
the Gulf Coast in the context of what I just mentioned earlier 
about finding ways to restore the marshes, finding ways to 
rebuild, findings ways to harvest blown down timber and get new 
trees growing because we had 150,000 acres impacted just on our 
national wildlife refuges.
    What I am getting back in the conversations is that they 
are trying to get their arms around all of the different 
possibilities. FEMA, for example, cannot use funding on Federal 
lands, but my understanding is that seven percent of the monies 
allocated to FEMA could be used to acquire habitat, to acquire 
lands, to reduce risk.
    We don't know whether or not that plays in and the Corps of 
Engineers' activities for the structures and how much wetland 
restoration recovery will come from there. I think that they 
are still trying to get their arms around just how large this 
question is.
    Mr. Pallone. Now, the cost for cleaning up the hazardous 
materials at the Sabine. I guess I am pronouncing it right.
    Mr. Hall. Sabine.
    Mr. Pallone. OK. Sabine National Wildlife Refuge and others 
are obviously potentially astronomical. Secretary Norton 
testified last week that $50 million of the Administration's 
$132 million request was going to hazardous materials cleanup.
    Obviously they need to be a priority to ensure that the 
refuges are safe for employees and visitors, but if the $50 
million is earmarked from the $132 million what will happen to 
damaged refuge infrastructure, and what won't be repaired if we 
don't provide enough funds to cover all of your storm-related 
costs?
    I guess I am concerned that we may be simply borrowing 
against the growing operations and maintenance budget without 
having any intention of providing the funding to cover those 
expenses.
    Mr. Hall. If I may, I would like to give you an answer and 
then follow up for the record to make sure my answer is 
correct.
    Mr. Pallone. Sure.
    Mr. Hall. My understanding is the $50 million estimate is 
what we expected to place on Sabine Refuge alone, the single 
refuge for the work to be done there, and $20 million of that 
would be at the beginning point for the toxic materials.
    Possibly two $50 million figures are getting crossed over 
here. The estimate for toxic cleanup ranges from $20 million to 
$50 million. Then the numbers that we are trying to say we 
believe it will probably take to restore the infrastructure and 
clean it up at Sabine is in the $50 million figure.
    I will double check that for the record and get back to 
you, but I think that might be the confusing point.
    Mr. Pallone. So you are not concerned that we are borrowing 
against operations and maintenance?
    Mr. Hall. No. We are talking about $30 million, at least to 
my understanding, and I will verify this for the record for 
you. My understanding is that $50 million would be going to 
Sabine. $20 million of that would be for toxic cleanup, $30 
million for other infrastructures.
    Mr. Pallone. OK. Thanks.
    Mr. Hall. Is that correct? OK.
    Mr. Pallone. Thank you, Mr. Chairman.
    Mr. Gilchrest. Mr. Kind?
    Mr. Kind. Thank you, Mr. Chairman. I want to thank you and 
the Ranking Member for holding this very important hearing. It 
is one of the great really untold stories of the impact of 
Katrina and Rita that we are experiencing in those southern 
Gulf states.
    Again, I, along with the others, are very appreciative of 
the work that Fish and Wildlife Service has done with regard to 
the emergency response that had to be dealt with immediately, 
but also this short- and long-term planning that you are 
undergoing right now. The scope of the work is quite mind-
boggling.
    We are dealing with the supplemental right now to try to 
address a lot of the short-term projects, but obviously it is 
really the tip of an iceberg, the impression I am getting with 
the more information that I am privy to.
    One of the questions I have, and we know how incredibly 
valuable the refuge and the wetlands and the marshes are in 
regard to storm protection for a lot of these communities in 
the southern states, but in regards to the priorities, the 
levee reconstruction versus wetlands rehabilitation. Is that 
something that we have to do simultaneously, or does one have a 
higher priority than another?
    I mean, what is the real long-term vision in regards to 
what do we have to accomplish now to try to restore a lot of 
the natural habitat and also access storm protection versus the 
man-made construction that needs to be repaired at the same 
time?
    Mr. Hall. I will answer that and then also let Regional 
Director Hamilton add to it.
    Those structures are down there. The levees, the water 
control structures, these other physical structures are there 
to help us manage and create the wetlands and do things with 
them.
    As long as the levees are breached, as long as water 
control structures are out, it is going to be difficult for us 
to do the management necessary to make sure that the outcome in 
wetlands on the refuge are there, so we place the structures 
first so that we can move into management. We do want to 
quickly move into management as soon as the structures are 
there.
    Is that correct?
    Mr. Hamilton. That is correct. I mean, we have our own set 
of levees. There are flood protection levees that you hear 
about in New Orleans, and folks are talking about Category 5 
storms, and then we have our own management levees and water 
control structures that we use for wildlife management. We are 
trying to get those back in place because those are critical to 
be able to manage freshwater in-flows and for wildlife.
    In terms of the other levees and what Director Hall 
mentioned a minute ago was that the wetlands are a critical 
part of the overall flood attenuation, everything that goes on 
down there. That is a critical part of what has been lost over 
the years at a huge rate.
    We have a golden opportunity right now to really do it 
right. There will be structural alternatives proposed, but if 
wetlands are not part of that we have really missed it in our 
minds.
    Mr. Kind. Is Fish and Wildlife taking the lead or 
prioritizing a calculation of the habitat destruction that 
occurred there, the impact it is going to have on like 
waterfowl species, or are outside organizations like DU--I see 
Mr. Young is here--doing a lot of that calculation right now?
    Mr. Hall. It is truly a team effort. Inside the Federal 
government from a scientific standpoint our folks are certainly 
out there working, and so is the U.S. Geological Survey on 
trying to help us understand what is left of the marshes.
    D.U., Nature Conservancy, all these partners, the state, 
have been critical in this. Frankly, I wish the public could 
truly see the partnership and the cooperation that is going on. 
We could not do it without them. No entity can do this alone. 
We are doing it together, and I am really proud of that.
    Mr. Kind. Well, personally that is going to be one of the 
keys to how successful we are as we move forward is this 
crucial public/private partnership and how we can meld things 
together to try to accomplish similar goals. That is going to 
be absolutely vital.
    In regards to the scope of the hazardous waste cleanup, it 
is my understanding it is the biggest challenge we have ever 
faced within the refuge system in the history of our country.
    How much of this is going to be naturally flushed out or 
taken care of by nature alone? How much is going to have to be 
dealt with by us in getting in there and cleaning it up 
ourselves?
    Mr. Hall. Well, the materials that we are really concerned 
about, we hope none of them get flushed out. We hope we get all 
of them out, and they are not exposed and released into the 
environment.
    Other debris-type materials frankly, like I said--
refrigerators and cars and boats. I mean, everything is there. 
We will hopefully just try and deal with that by burying it, 
but I don't believe that this is the kind of challenge that we 
want nature assimilating it. This is the kind of thing that we 
want to remove it from nature.
    Mr. Kind. So if we have sunken tanks or things of that 
nature we have to literally just go in and pull that out? We 
just cannot let that be subterranean?
    Mr. Hall. Well, no. The subterranean things are if you 
noticed in some of these slides there was one there in the 
marshes in the open area, the open water area, that showed like 
little chevrons. That was a NAWCA project. They survived.
    You know, anything that the water got up above--I mean, the 
damage was from wind and surface action, and so even those 
levees inside open water areas survived to do what we wanted 
them to do in removing sediment and allowing grasses to come 
into the bay, et cetera, so things underground certainly we are 
concerned about possible ruptures if they occurred, but we are 
really concerned about what is laying on the surface right now.
    Mr. Kind. OK. Mr. Chairman, I appreciate you wanting to go 
down and have a field hearing next week. Unfortunately, due to 
prior commitments I am not going to be able to make that, but 
if you are planning a second trip down there I would certainly 
be interested in coming along for that.
    I guess I am happy to report today that myself and 
Representative Jim Saxton, Mike Castle and Mike Thompson are 
moving forward on the formation of a national refuge caucus 
here in the House of Representatives, and we would like to 
delve into this particular issue as one of our first working 
projects out of the block, so we will look forward to some 
follow-up contact and communications with all of you as we get 
this caucus up and going.
    Mr. Hall. We are really pleased to hear that.
    Mr. Kind. Yes. Thank you.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Kind.
    I have just a couple of follow-up questions and wonder if 
Adrian can put those pictures back up there on the screen.
    While we are waiting for those, I guess, Mr. Hall, the 
Stafford Disaster Relief and Emergency Assistance Act talks 
about things that FEMA can do and FEMA cannot do. I guess one 
of the things that FEMA cannot do is it has no authority to 
clean up debris on Federal land.
    Mr. Hall. That is correct.
    Mr. Gilchrest. Yes. Leave it right there, Adrian. Thanks.
    [Slide.]
    Mr. Gilchrest. Given the situation, in this circumstance is 
FEMA too overwhelmed with everything else they are doing to 
assist in this cleanup, or can the Corps of Engineers?
    You say it is a big team effort down there. Is there any 
statute that we could change or modify that would expedite some 
of this cleanup?
    Mr. Hall. Well, there are a couple of obstacles. I can't 
suggest law changes, but I can tell you that the obstacle for 
using FEMA funds on Federal lands, especially when those 
Federal lands are providing protective buffers to the people, 
is something that certainly should be evaluated.
    The other one is, and this was a pretty significant concern 
to us. All of our people were out there working. We sent them, 
no questions asked. We didn't say where is the money coming 
from. FEMA was not able to in most, the vast majority, of cases 
reimburse us for helping them with FEMA activities because we 
were not on their list. That is troublesome.
    Mr. Gilchrest. You were not on their list because?
    Mr. Hall. You know, I don't know the answer to that. I 
don't know who establishes the list.
    Mr. Gilchrest. You were never specifically tasked?
    Mr. Hall. The Fish and Wildlife Service.
    Mr. Gilchrest. I see.
    Mr. Hall. If we got a task order, it usually was through 
the Corps of Engineers or through someone else.
    Mr. Gilchrest. I see.
    Mr. Hall. They had the list of agencies that is a task 
workforce type list, and the Fish and Wildlife Service is not 
on there.
    Mr. Gilchrest. And yet you were the first responders.
    Mr. Hall. We ended up, frankly, absorbing all of our costs 
out of operations.
    Mr. Gilchrest. Right.
    Mr. Hall. We would do it again because of the need.
    Mr. Gilchrest. Yes.
    Mr. Hall. But that is something we couldn't do very many 
times.
    Mr. Gilchrest. We are going to try to make sure that you 
get your due compensation one way or the other.
    The other quick comment about the restoration of the 
wetlands and the marshes. This may not be the best adequate 
picture, but given the fact that you went from 48 square miles 
a year losing fastland to 20 some square miles, can you tell us 
about how many square miles was lost between Rita and Katrina 
in lower Louisiana and how do you rebuild that land under the 
present circumstances? Is it likely?
    This is a good example I guess of some of the structures 
you are putting up.
    Mr. Hall. That is the NAWCA grant----
    Mr. Gilchrest. It is the NAWCA grant.
    Mr. Hall.--that survived it because it went underwater.
    Mr. Gilchrest. Can you tell me how many square miles was 
lost in Rita and Katrina? Did that exacerbate that 20 some 
square miles so it is back up to 40 square miles?
    Is there any prediction about the amount of dollars or how 
you are going to put the sediment back in those marsh areas to 
keep them from washing away?
    Mr. Hall. Well, I will give two quick responses.
    Mr. Gilchrest. OK.
    Mr. Hall. And then I will ask Sam to follow up. The first 
quick response is that we calculate that on national wildlife 
refuges alone we lost in the neighborhood of 220 square miles 
or were impacted. A lot of that turned to open water.
    We are not exactly sure how much of that will respond. Some 
of that is timber because we haven't broken it down the way you 
have asked for it, but we can try and get that. Some of it was 
timber blown over.
    Those are impacted acres, but a large portion of that was 
this kind of open marshland turned to open water, which of 
course----
    Mr. Gilchrest. Is that a marshland turned to open water?
    Mr. Hall. No. This is marshland. The marsh starts up there 
at the edge.
    Mr. Gilchrest. Yes.
    Mr. Hall. This is an example of what we could do to try and 
improve the conditions down there. We use NAWCA to do that. 
This was an example that we do know ways to try and do this.
    Another way though is the marshes have just simply been 
starved. When the mainline Mississippi levees were 
constructed--the floodplain of the Mississippi River was 
historically 100 miles wide when you get down into the Lower 
Mississippi.
    Now it is constrained by the mainline Mississippi levees 
and the mainline Atchefalaya levees and so all of that 
sediment, 10 to 20 tons per second, is just being shot straight 
off the edge of the Continental Shelf, which is also 
contributing to the hypoxia zone that you also hear about.
    That sediment was the food to build the marshes, and we 
need to figure out long-term how to get some of that sediment 
back over into doing the job that it was doing to build the 
marshes when the levees were built.
    Now, as far as the overall, I will ask Sam to respond to 
that.
    Mr. Hamilton. Well, there have been a number of figures. We 
have seen as high as 118 square miles of productive marsh 
converted to open water in a period of eight hours. That is a 
staggering amount when you look at the nation's wetland loss 
rate, what happened in eight hours on the coast.
    These fragile marshes, as Director Hall had mentioned, have 
been starved for really a century in terms of sediment, so they 
are very fragile, and certain parts of the Louisiana coast are 
suffering more than others.
    I sit on the Louisiana Wetlands Task Force and representing 
Secretary Norton, often referred to as the Breaux Act, the 
CWPPRA Program. It is not a question of how you do it or the 
know-how how to do it. There are structures that are in place 
that can work--Caernarvon, the Davis structures. There are 
diversion structures that are designed and engineered to pour 
sediment and water out into the marshes, so they can work.
    The wave action structures that you saw are designed to 
stop the fetch that comes across open water and allows 
sediments to build behind it so that marshes can be created.
    There are probably, I am going to guess, 100 to 200 
projects that are on the books today that are through the 
Breaux Act that funding has not been available through that 
program in order to construct them. We are taking them one at a 
time, taking the highest priorities one at a time. We have been 
doing that for years. We know how to do it.
    Mr. Gilchrest. Will we see you down there next week? Could 
you give us a dollar figure for those projects that come under 
the Breaux Act that you have to do one at a time if it is 
possible that those projects are ready to go and that money 
could come down and you could expedite this process?
    Mr. Hamilton. We can get you the figures, and then the LCA, 
which is really the bigger, longer term view, the Louisiana 
Coastal Authority, the bigger projects have some cost figures 
with those.
    Mr. Gilchrest. Thank you.
    We have the votes underway, and I am not sure if either Mr. 
Pallone or Mr. Kind had one follow-up question before we head 
down.
    Mr. Pallone. I don't know if we have time, but I just 
wanted to ask in terms of the amounts requested in this recent 
supplemental funding request is there any funding to establish 
a network of observation and monitoring systems or stations, I 
should say, to assess ecological change and recovery over time?
    I mean, obviously so much money is going to be spent, and I 
am just wondering if we are going to have some kind of 
observation or monitoring stations so we can see whether it is 
well spent.
    Mr. Hall. In our portion of the supplemental, we are 
putting every dollar we can to restoration. I don't know if 
there are portions of this request for U.S. Geological Survey, 
for example, to do monitoring on change.
    Mr. Pallone. How would you assess then whether the money is 
being well spent? What kind of assessment would there be?
    Mr. Hall. Well, we would hope to get there. I mean, we 
certainly will want to do that. I am just saying our first 
priority is to restore.
    Mr. Pallone. Sure.
    Mr. Hall. We do need to get though, once we are able to go 
out and start restoring, we do want to monitor. We were doing 
that before with the help of USGS, and we will continue to do 
that, but that is a little further down the road.
    Do you want to add?
    Mr. Hamilton. Let me just add one thing. Yesterday, for 
example, we had a helicopter in the air at Sabine Refuge and at 
Cameron Prairie Refuge, and we were flying USGS scientists who 
were collecting water quality data looking at the effect of 
salinity.
    They have actually got money in their budget to do some of 
the research and monitoring. We used our helicopter to get them 
up to do that.
    Mr. Pallone. Maybe with the Chairman's permission you could 
maybe get back to us in writing about how you would assess it 
and whether there would be some monitoring station or whatever 
envisioned down the road.
    Mr. Hall. Absolutely, Mr. Pallone.
    Mr. Pallone. Thank you.
    Mr. Hall. We can do that.
    Mr. Pallone. Thanks, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Mr. Kind, any follow-up?
    Mr. Kind. No, Mr. Chairman.
    Mr. Gilchrest. Gentlemen, thank you very much. We apologize 
for the vote.
    Mr. Hall?
    Mr. Hall. I just want to make one final comment if I may, 
and that is you will be hearing from another panel when you 
come back. I just can't say enough about the partnership and 
what these panelists will be telling you.
    None of this could happen unless we were doing this 
together, so I want to enter for the record our appreciation 
and compliments to the people that have been helping us out.
    Mr. Gilchrest. Yes, sir. Thank you, Mr. Hall, Mr. Hamilton.
    We will recess until noon.
    [Whereupon, at 10:40 a.m. the Committee recessed, to 
reconvene at 12:00 p.m. the same day.]
    Mr. Gilchrest. The hearing will come to order. Thank you, 
all of you, for coming this afternoon and for bearing with the 
vote schedule.
    I don't know if we will be interrupted between now and the 
end of the hearing, but I understand there is another hearing 
in this room at 1:30, and I have another meeting at 1:30. This 
is Washington scheduling. Thank you for coming. We look forward 
to your testimony.
    This afternoon we have Mr. Don Young, Executive Vice 
President, Ducks Unlimited. Thank you. Mr. W. Parke Moore, III, 
Assistant Secretary of the Louisiana Department of Wildlife and 
Fisheries. Welcome, sir. Mr. Evan Hirsche, President, National 
Wildlife Refuge Association. Welcome. Mr. Michael Daulton, 
Director of Conservation Policy, National Audubon Society. 
Thank you. And Mr. David Richard, Executive Vice President, 
Stream Property Management, Inc., Stream Company. Welcome.
    Thank you very much for coming, and I think we will start 
with Mr. Don Young.

     STATEMENT OF DON A. YOUNG, EXECUTIVE VICE PRESIDENT, 
                        DUCKS UNLIMITED

    Mr. Young. Thank you, Mr. Chairman. It is indeed a pleasure 
and honor to be before you and your committee again this week.
    As you mentioned, I am Don Young, the Executive Vice 
President of Ducks Unlimited, and we represent a conservation 
organization that has been in business since 1937. Its mission 
is to focus on wetlands and waterfowl conservation, and we do 
that effectively across the entire North American continent.
    I would like for the record to enter my written testimony 
if you will, sir, and we will proceed from there.
    Mr. Gilchrest. Without objection.
    Mr. Young. Thank you, sir.
    As I have mentioned, the subject of today is entirely 
consistent with Ducks Unlimited's conservation mission. We are 
very concerned about wetland issues across North America and 
particularly with respect to what has been transpiring on the 
Gulf Coast of this great nation.
    We are obviously well aware organizationally, as are people 
around this room and across this nation, regarding the 
significant damage that occurred there last fall. I would like 
to bring to your attention the fact that the DU organization as 
a whole has been stepping forward in our typical fashion to 
help out not only with the wetland restoration issues there, 
but the DU community if you will--we have presence in virtually 
every community in the nation--has stepped forward to provide 
relief efforts for hurricane victims down there led by our past 
Chairman of the Board, Dr. L.J. Mayeaux, a physician from the 
area around Alexandria.
    Over the course of about a week's time, the Ducks Unlimited 
constituency from across this nation mobilized dollars, as well 
as finite resources, to the tune of about 40 tons of relief 
supplies were provided by our Ducks Unlimited membership to aid 
the relief efforts in that part of the world. We are proud of 
that activity not just with respect to our wetlands and 
wildlife issues, but, most importantly, with regard to the 
people there.
    In response, Mr. Chairman, to the concerns regarding the 
wetlands issues in that part of the world that I will speak to 
in more detail, we made, if you will, a preemptive commitment 
of an additional $15 million as an organization to nudge along 
the wetland restoration efforts in that part of the world, and 
that is incremental resources applied to this particular 
effort.
    We believe, given that our mission relates to wetland 
conservation, that the issue before this committee today is 
entirely consistent with concerns for the Fish and Wildlife 
Service--we heard from Mr. Hall this morning--and the national 
wildlife refuge system as a whole.
    Diverse parties have come to the table, many of whom are 
represented at the table here today, coupled with the Fish and 
Wildlife Service and others, to put their attention to this 
vital issue for the nation. We are well aware that the Chairman 
of the House Resources Committee, Mr. Pombo, has provided a 
letter with respect to his support for funding allocations to 
deal with this particular issue.
    I would like to bring to the Committee's attention an 
excerpt from that letter which Ducks Unlimited wholeheartedly 
supports. I will read, if I may, in quotes:
    ``Mr. Chairman, I strongly support this request for 
additional funding and believe it will go a long way toward 
reducing the preliminary damage estimates to the refuge system 
of $208 million. However, I would urge that you broaden the 
availability of these funds to include resource restoration. It 
is absolutely critical that these coastal wetlands be restored 
because they are the lifeblood of these wildlife resources and 
are absolutely necessary for the stability of the coastal 
region.''
    We believe the Chairman was right in terms of his 
conclusions about the issue, and we would like to provide 
additional support this afternoon for this particular topic.
    I would like to begin by talking briefly about the 
importance of the Gulf Coast to migratory birds, which are 
fundamental to our work. Louisiana and Texas represent crucial 
areas with regard to our mission. In fact, they represent one 
of the top five conservation priorities for our organization 
across North America.
    From a waterfowl specific perspective, these areas are 
vitally important with a number of species, including the 
gadwall and gray duck from that part of the world. 
Approximately 70 percent of that entire population of gadwalls 
winter in that Gulf Coast area, and significant numbers of also 
green-winged teal and scaup, to name a few, find this area to 
be incredibly important for their wintering needs.
    The saline, the brackish and the freshwater wetlands of the 
Gulf Coast are vitally important to support these birds, and we 
believe that needs to be brought to a lot of people's 
attention. It is not only waterfowl, Mr. Chairman, that depend 
upon these wetlands. Hundreds of other species, including 
shorebirds such as sandpipers and also endangered species such 
as the piping plover are very much dependent upon that 
particular part of the world.
    I would also bring to your attention that importantly a 
wide variety of fish species depend upon these both freshwater 
and saltwater habitats, and that in turn provides significant 
issues with respect to one other important species, and that is 
people. From a recreational and commercial fisheries 
perspective, that is fairly intuitively obvious, but also the 
oil and gas industry is vitally dependent upon these areas.
    Wetlands in general, beyond their value from a flood 
attenuation perspective and erosion reduction perspective, also 
are vitally important for the provision of clean and abundant 
fresh water for people as well.
    The overarching problem we are facing in this part of the 
world relates to an ongoing degradation of wetlands. Mr. Hall 
spoke earlier today about how this is occurring on an ongoing 
basis. Approximately 25 square miles of wetland are lost each 
year by ongoing activities, including coastal subsidence, but 
the hurricanes of last fall, Rita and Katrina in particular, 
put an accelerated pressure in terms of wetland loss in that 
part of the world.
    Perhaps to briefly put it in perspective, if the scope of 
the wetland loss that occurred during last summer and fall was 
to transpire here in the nation's capital, within a period of 
less than two years the only dry area in the District of 
Columbia would be the nation's Capitol Hill building itself.
    Looking forward two years from now, had we seen that rate 
of loss continuing the flooding would result in the respected 
Members of this committee having to canoe to work, which is a 
pretty sad commentary on what is happening in Louisiana right 
now. We are, as an organization, very engaged in trying to 
ensure that the work down there will provide protection for not 
only wildlife, but also for people, as I mentioned.
    Mr. Hall again mentioned this morning the buffering effect 
or if you want to call it a speed bump for hurricanes occurs in 
the form of these wetlands that protect these areas. It is 
considered that for every mile of wetland lost in that part of 
the world, we lose the protection of one foot of storm surge, 
so we very much believe it is an important issue.
    Turning my attention now to post-hurricane conditions and 
impacts on migratory birds, that is yet to be fully quantified. 
Some of our colleagues here at the table may speak to this 
issue a little bit more, but suffice it to say when we are 
losing tens and even hundreds of square miles of wetlands it is 
clearly going to have both short-term and long-term impacts 
upon the wildlife and the people who depend upon these areas.
    We heard today that----
    Mr. Gilchrest. Mr. Young, we will have some time for 
questioning, but we have a number of witnesses.
    Mr. Young. Right.
    Mr. Gilchrest. We have time limited in this room.
    Mr. Young. Right.
    Mr. Gilchrest. If you could bring your statement to a 
conclusion?
    Mr. Young. Sure. I would be happy to do that. Thank you.
    Mr. Gilchrest. Thank you.
    Mr. Young. We heard today how important national wildlife 
refuges are, and we are very supportive of those concerns and 
act as a very close partner with the Fish and Wildlife Service 
in terms of delivering protection and enhancement of those 
areas.
    Let me close by indicating that Ducks Unlimited has both 
the energy, the commitment and the passion for working with a 
diverse array of partners, some of whom are at the table here 
today. We believe that this is an issue that merits this 
nation's attention.
    We have signed a Memorandum of Understanding with the U.S. 
Corps of Engineers, and as recently as about a month ago I met 
with General Riley, and interestingly out of that meeting where 
we spoke at length about the need for concerns in terms of 
restoring that Gulf Coast, General Riley spoke to the fact that 
the flood protection measures that the Corps of Engineers is 
charged with providing that include structural issues, he 
indicated that that kind of structural flood protection 
measures by the Corps of Engineers would not happen, could not 
happen, without going hand-in-hand with the need for wetland 
restoration in that part of the world.
    We are very delighted to hear that vote of confidence for 
wetland restoration from the Corps of Engineers to supplement 
other comments here today, and we stand ready to work with 
these partners to make sure this kind of work is done. It needs 
to be done quickly, and we stand ready to help with that.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Young follows:]

       Statement of D.A. (Don) Young, Executive Vice President, 
                            Ducks Unlimited

Introduction
    Mr. Chairman, and members of the Subcommittee, my name is Don 
Young. I am the Executive Vice President of Ducks Unlimited (DU). Ducks 
Unlimited is a non-profit wetlands conservation organization, with 
affiliates in Canada and Mexico. In my role as the staff leader for 
Ducks Unlimited, I manage our employees and provide leadership to our 
volunteers and members in all 50 states.
    Ducks Unlimited was founded in 1937 by concerned and farsighted 
sportsmen-conservationists. It has grown from a handful of people to an 
organization of over 1,000,000 supporters who now make up the largest 
wetlands and waterfowl conservation organization in the world.
    Since our inception, DU has conserved more than 11.5 million acres 
of wildlife habitat in the U.S., Canada, and Mexico. DU prides itself 
on our work with private landowners and our ability to assist and 
advise farmers, ranchers, and foresters in order to meet their economic 
goals while still providing high quality habitat for the wildlife.
    Ducks Unlimited has a simple and focused mission: ``Ducks Unlimited 
conserves, restores and manages wetlands and associated habitats for 
North America's waterfowl. These habitats also benefit other wildlife 
and people.'' Given this mission, it is understandable that DU has a 
strong connection to the U.S. Fish and Wildlife Service (Service) and 
the National Wildlife Refuge System. There is much in common between 
DU's mission and that of the Service and the National Wildlife Refuge 
System.
    Ducks Unlimited has an extensive science and technical staff with 
over 30 PhD biologists in North America and over 100 Master's level 
scientists. In the late 1980s, DU developed an International 
Conservation Plan to help guide the location and focus of our 
conservation work, and it is updated routinely to keep it current with 
changing habitat and duck population data. Our International 
Conservation Plan identifies five highest priority areas critical for 
the life cycle of North American waterfowl, with a focus on either 
breeding, migration or wintering habitats. The coast of Louisiana is 
the major portion of one of these top five priority areas!
    As an indication of how important Louisiana's wetlands are to DU, 
shortly after Hurricane Katrina, Ducks Unlimited pledged to direct $15 
million toward the restoration of Louisiana's coastal wetlands. We 
intend to partner with federal, state, private, and nonprofit entities 
in fulfilling this pledge and leveraging the money.
    Ducks Unlimited is proud to have been involved with the first post-
hurricane wetlands restoration project, which was completed last 
October. In this North American Wetlands Conservation Act (NAWCA) 
project, DU partnered with a host of local, state, federal, private and 
nonprofit organizations to restore and enhance 4,736 acres of coastal 
marsh in the Point-aux-Chenes State Wildlife Management Area. Point-au-
Chenes and the surrounding marshes provide habitat to tens of thousands 
of waterfowl, representing many species, especially Gadwalls, Green-
Winged and Blue-Winged Teal, and Lesser Scaup. It also benefits many 
other birds like shore birds, wading birds, songbirds and other 
wildlife like alligators. We hope to continue our partnership efforts 
through NAWCA to restore and protect the critical coastal marshes in 
Louisiana.
    Ducks Unlimited's response to the hurricanes did not end with our 
commitment to help mitigate wetland damage. On a more personal level, 
the immediate past Chairman of the Board of Ducks Unlimited, Dr. L.J. 
Mayeaux from Marksville, LA, coordinated Ducks Unlimited members and 
supporters from around the country in a hurricane relief effort. To 
date, this humanitarian relief effort has shipped well over 40 tons of 
food, water and supplies to the hurricane victims along the Gulf coast 
and, although retired, Dr. Mayeaux re-opened his medical clinic to 
serve hurricane evacuees.
    Hurricanes Katrina and Rita are terrible tragedies that must not 
fade from our country's consciousness. The nation's first priority must 
continue to be to help those in need and to get our devastated 
communities back on their feet. We must respond in a way that does 
justice to those whose lives have been lost and whose homes have been 
destroyed, so that we can prevent disasters like this from happening in 
the future.
    In a letter dated March 2, 2006 from Chairman Pombo, of the House 
Resources Committee, to Congressman Jerry Lewis, Chairman of the House 
Appropriations Committee, Chairman Pombo takes a very strong position 
in support of wetland restoration in Louisiana. The letter deals with 
President Bush's most recent supplemental appropriations request. In 
this letter, when speaking about the $132.4 million request slated for 
the U.S. Fish and Wildlife Service, Congressman Pombo says:
        ``Mr. Chairman, I strongly support this request and believe it 
        will go a long way towards reducing the preliminary damage 
        estimates to the refuge system of $208 million dollars.--
        However, I would urge that you broaden the availability of 
        these funds to include resource restoration. It is absolutely 
        critical that these coastal wetlands be restored because they 
        are the lifeblood of these wildlife resources and are 
        absolutely necessary for the stability of the coastal region.''
    Chairman Pombo is correct. Ducks Unlimited would like to take this 
opportunity to provide scientific support and empirical evidence to 
support Mr. Pombo's statements. DU's testimony will stress the 
importance of wetland restoration as the Service repairs its refuges 
and other federal agencies work to help Gulf Coast communities recover 
from hurricanes Katrina and Rita. The loss of coastal wetlands, 
especially along the Louisiana Gulf coast, was a problem long before 
last year's terrible hurricane season. This devastating land loss 
continues at an alarming rate. The dramatic loss of wetlands needs to 
be factored into recovery plans, not only to address current natural 
resource restoration needs but, even more importantly, to provide a 
wetland buffer to reduce the impact of future hurricanes. This recovery 
approach is also financially responsible since the restoration of 
coastal wetlands will help to protect the huge capital investments the 
American taxpayer will be making as we rebuild coastal communities, 
levees, and refuges.
    In this testimony Ducks Unlimited will first explain and discuss 
the unique importance of the Louisiana Gulf Coast to migratory 
waterfowl and other wildlife. Next the challenging issue of coastal 
loss in Louisiana (flooding, subsidence, and erosion) will be outlined 
and described. There will then be a report of how these terrible 
hurricanes have impacted migratory birds. This will overlay a 
discussion of which National Wildlife Refuges along the Louisiana Gulf 
Coast were most damaged by Hurricanes Katrina and Rita and a 
description of which of the damaged refuges are most important to 
waterfowl. The testimony will conclude with a discussion of what 
actions should be taken by the U.S. Fish and Wildlife Service and how 
Ducks Unlimited can be of assistance.

Importance of Gulf Coast to Migratory Birds
    The Louisiana and Texas Gulf Coasts are very important to the 
mission of Ducks Unlimited, and to this nation. The coastal wetlands of 
Louisiana and Texas provide critical habitat for North American 
waterfowl populations as well as a tremendous diversity of other birds, 
fish, and other wildlife. This unique coastal wetland ecosystem 
annually provides a winter home for between 6 and 10 million ducks and 
geese, and millions of wading birds, shorebirds, and other species of 
wetland-dependent species of migratory birds, as well as many other 
wildlife species.
    Specifically, over 70% of the Gadwall and Green-Winged Teal 
populations in North America rely on this unique wetland habitat along 
the Louisiana coast. Additionally, at least 40% of all Lesser Scaup and 
25% of Northern Pintail and American Widgeon populations in North 
America depend upon habitat provided by Louisiana's coastal wetlands. 
Coastal Louisiana also provides wintering habitat to about 20% of North 
American populations of Snow Geese and White-fronted geese using the 
Mississippi flyway. That is about a half a million geese each year. It 
is also important to note that the Louisiana coast is home to the 
Mottled Duck, which is a non-migratory species. These ducks spend their 
entire life cycle in this coastal habitat, and over 90% of the North 
American population of Mottled Ducks lives along the Gulf Coast of 
Louisiana and Texas, 60% in Louisiana alone. In short, the Louisiana 
and Texas Gulf coasts, with their unique mix of saline, brackish, and 
freshwater marsh habitats, are critical to the life cycle of North 
American ducks.
    Coastal Louisiana is also considered one of the continent's premier 
stop-over spots for shore birds to use during their migration, 
providing critical migration and winter habitat for millions of 
American Avocets, Marbled Godwits, Whimbrel, Semi-palmated Sandpipers, 
and at least 35 other species of shorebirds in North America. 
Similarly, it supports substantial breeding populations of colonial 
water birds such as Roseate Spoonbills, Snowy Egrets, and Royal, Least 
and Sandwich Terns. While bird watching along the Louisiana coast, 
famed ornithologist and artist Roger Tory Petersen was once reported to 
say that he saw the largest colony of Sandwich Tern in the world, with 
over 40,000 breeding pairs.
    Coastal Louisiana also provides critical habitat to several birds 
on the endangered species list, including the Brown Pelican, the Piping 
Plover, and the Bald Eagle. If the Louisiana coast continues to erode 
these species may never make it off the endangered species list, or 
they could even become extinct.

Over-Arching Problem of Coastal Loss in Louisiana
    The Hurricane Katrina and Rita events of 2005 are estimated by U.S. 
Geological Survey to have devastated 181 square miles of coastal 
wetlands. Even a normal year's coastal wetlands loss shrinks 
Louisiana's wetlands by 25 square miles because river sediments that 
once spread out and replenished the Mississippi River's coastal delta 
are now funneled into the Gulf of Mexico. These wetlands once served as 
a natural hurricane buffer, reducing storm surge and absorbing wind and 
wave energy. More than 1 million acres of these coastal wetlands--or 
1,900 square miles--have been lost since 1930. If this land loss is not 
reversed, nothing can be done to secure Louisiana from future storm 
damage
    Here is a scenario that puts this issue of the disappearing coast 
into terms closer to home for the people in attendance at today's 
hearing. Let's assume that Capitol Hill is the highest point of land in 
the 61 square mile District of Columbia, and let's further assume that 
the Potomac River is eroding and flooding the District of Columbia at 
the exact same rate that coastal wetlands are being lost in Louisiana. 
If this scenario were to begin here today, the only land that would be 
left above water 2 years and 3 months from now would be Capitol Hill; 
so you folks would be commuting to work by boat. This rate of land loss 
is not an exaggeration, it is happening at this very moment on the 
coast of Louisiana. We're losing towns, we're losing roads, we're 
losing marshes, and we're losing refuges.
    The fundamental problem along the Louisiana coast is an induced 
collapse resulting from hydrologic changes and wetland conversions on a 
landscape scale.--To be sure, there are factors other than human 
activities that contribute to this situation, but it is beyond dispute 
that the principled drivers are related to efforts to confine the 
Mississippi River, facilitate navigation, and promote the exploration 
and production of oil, gas, and other subsurface minerals.--This 
statement is not meant to be critical, but rather to make the simple 
point that for much of the last 150 years it was the aim of our 
society--and often federal policy--to channelize our waterways, convert 
our wetlands, support the exploration, production and transportation of 
oil and gas, and facilitate deep-draft and coastal navigation.--There 
were often good reasons for those actions and policies, but they came 
with a cost that was not adequately appreciated or understood at the 
time.--Now we know the price of all that progress--over one million 
acres of land lost to subsidence and erosion since 1900 and an ongoing 
loss of nearly 25 square miles each year in Louisiana alone.
    The response to this calamitous land loss must be both systematic 
and long-term.--To approach it too narrowly or with short-term fixes is 
to court certain disaster and sustain loss of what is among the most 
important wetland systems in North America, perhaps in the world.----
The restoration effort that DU seeks will not replace the million-plus 
acres of land that have been lost.--Rather, it will restore a 
functional balance to this coastal ecosystem, so that it becomes 
ecologically, culturally and economically sustainable.--The key to 
sustainability is to work with the same natural forces that built and 
nurtured these lands over thousands of years principally the 
Mississippi River and its tributaries. For those who live along the 
river or in its coastal plain, it has always been necessary to balance 
and rebalance our relationship with the river and our waters.--Many of 
the decisions that are now driving our coastal collapse made it 
possible at one time to live and prosper there, but unless a new 
balance is struck, and struck soon, this place will cease to exist.--It 
is no exaggeration to say that the continued collapse of this area 
could claim tens of thousands of lives in increasingly flood-prone 
areas, wipe out one of the greatest biological and estuarine treasures 
in the world, and severely disrupt our nation's energy and 
transportation system. This is a global environmental problem as well 
as a national security issue for the U.S.
    Another critical point is that these lost wetlands once served as a 
natural hurricane buffer, reducing storm surge and absorbing wind and 
wave energy. It is estimated that a hurricane's storm surge is reduced 
by 1 foot for every square mile of coastal wetlands that it travels 
over. Therefore, coastal wetlands act as a ``speed bump'' for hurricane 
damage, a very important line of defense in a comprehensive flood 
protection system. This valuable coastal storm surge buffer will be 
lost forever if the wetland loss is not reversed.

Post-Hurricane Conditions and Impacts on Migratory Birds
    It may come as a surprise to some, but historically hurricanes have 
played an important ecological role in maintaining the health and 
productivity of the Louisiana coastal wetlands. Saltwater storm surge 
and extreme winds combined to ``shock'' the marsh, and in ways 
analogous to prairie wildfires of pre-settlement North America, often 
reinvigorated coastal marshes. The storms changed plant communities and 
kept them productive and vigorous. Typically, negative short-term 
effects of less than a year were offset by long-term gains in habitat 
quality in subsequent years.
    Today, any beneficial effects of hurricanes on marsh productivity 
are reduced and limited. Because of the vast scale of alterations to 
marsh hydrology, the storms now can cause significantly more permanent 
wetland loss and damage than in historical times. The U.S. Geological 
Survey (USGS) estimates that nearly 100 square miles of marsh were lost 
in southeastern Louisiana as a result of Hurricane Katrina alone. 
Historically, these losses would have been repaired naturally over a 
relatively short period of time as the Mississippi River delivered new 
sediment to rebuild affected areas. Today, levees prevent the river 
from repairing this marsh, and losses from storms like Katrina are 
essentially permanent.
    Some areas of coastal wetlands impacted by Katrina and Rita will 
recover and perhaps provide short-term benefits in terms of their 
productivity and value as wildlife habitat. Unfortunately however, in 
most impacted areas, natural processes are so interrupted that the 
long-term net outcome will be accelerated rates of loss for these 
important coastal wetlands. As mentioned previously, this system is in 
dire need of large-scale restoration. Until restoration needs are met, 
wetland losses will continue, and rates of loss very likely will be 
exacerbated by future storm events. The impact on populations of 
migratory birds is predictable--it is very clearly established that 
wildlife populations go the way of the habitat they depend upon. In 
this case, loss of wetlands along Louisiana's coast will negatively 
impact populations of waterfowl and other migratory birds over the long 
term.
    While it is too early to give a complete assessment of the results 
of the two storms, we do know that the coastal marshes of Louisiana 
need to maintain the capacity to recover. Louisiana's coastal marshes 
have experienced numerous changes that have reduced their ability to 
respond and recover from natural events that include hurricanes. To 
rebuild the capacity of the coastal marshes to recover, various 
restoration features have been proposed and some have been implemented 
throughout Louisiana.
    In the Chenier Plain portion of southwestern Louisiana, the primary 
features include levees and water control structures. Those features 
are needed as a result of man-made channels that have altered the 
hydrology of those natural systems. Those channels allow increased 
tidal fluctuation and provide avenues for higher-salinity water to 
enter the fragile marshes. The levees and structures are an effort to 
reduce tidal amplitude and reduce the intensity of saltwater that 
enters those systems. Those features need refurbishment and replacement 
to ensure that the marshes of the Chenier Plain maintain their ability 
to recover from future hurricanes like Katrina.
    In the Mississippi River Coastal Wetlands area of southeastern 
Louisiana, the primary feature is the ability to use fresh, sediment-
laden water beneficially. This is achieved by restoration techniques 
like freshwater diversions, siphons, and delta splays. Initial 
assessments have indicated that, across Southeastern Louisiana, these 
features themselves appear to have fared well in the storms. Southeast 
coastal marshes containing these features can continue to use the 
sediment laden river water and provide the right conditions for these 
marshes to recover. Unfortunately there are other places that need 
these types of restoration features, and the impacts of the recent 
storms have increased that need.
    At this time it is difficult to give a comprehensive assessment of 
the storm's impact on migratory birds. Currently it is important to 
focus efforts on assessing the damage to habitat restoration features 
and begin repairing what has been compromised, so that the marsh has 
the capacity to recover from the recent events in a natural manner. 
Without these restoration efforts, coastal wetland loss can be expected 
to increase on refuge lands and other lands.

Status of Hurricane-Impacted National Wildlife Refuges
    The 2005 hurricane season caused damage on 66 National Wildlife 
Refuges in the states of Texas, Louisiana, Mississippi, Arkansas, 
Alabama, and Florida. The storms caused major destruction to buildings, 
roads and other Refuge infrastructure. Less obvious, but even more 
important from the standpoint of the Refuge System's mission, is the 
damage suffered by wildlife and natural resources on Refuge lands and 
adjacent areas. Measurable impacts to natural resources include 
significant loss of bottomland forests; reduction in water management 
capability of levees and dikes; transformation of wetlands due to 
saltwater intrusion; infiltration of aquatic invasive species, and 
significant erosion due to ocean tides. DU is working with the Service 
and other partners to determine the full extent of the damage on 
coastal wetlands in the region and long-term impacts on waterfowl 
populations.
    Approximately 1/3 of the refuges affected are in the State of 
Louisiana. Hurricane Katrina caused severe damage to refuges in 
southeastern Louisiana, while Hurricane Rita devastated the refuges of 
southwestern Louisiana. As previously mentioned in this testimony, 
preliminary assessment of Southeast Louisiana suggests that more than 
100 square miles of wetlands have been transformed from productive 
marsh to unproductive open water as a result of the hurricanes.
    Habitat restoration within the impacted Refuges and adjacent areas 
is critical to local communities and to their efforts to rebuild their 
economies in the wake of two devastating hurricanes. According to the 
U.S. Fish and Wildlife Service, visitation at hurricane-affected 
refuges exceeded 4.5 million visitors in 2005, including 250,000 
visitors at Sabine Refuge, located in southwestern Louisiana. Hunters, 
anglers, birdwatchers, photographers and other outdoor enthusiasts who 
visited Sabine Refuge contributed $9 million to the local economy and 
generated $1 million in tax revenue. This type of economic return is 
evident at other refuges in the region and throughout the entire Refuge 
System. As we move forward with repair, a critical first step is for 
habitat damage to be addressed in a timely manner to enable visitors to 
observe and enjoy the wildlife and natural resources that flourished on 
these refuges prior to the hurricanes.
    Hurricane Rita caused significant damage to Sabine Refuge in 
another way. Reports indicate that over 1,700 acres of the Refuge are 
covered with debris, and at least 1,400 items of potentially hazardous 
materials have been identified. Bayou Sauvage, Cameron Prairie, 
Lacassine, Bon Secour and Delta Refuges have also been impacted by 
heavy debris. As the Service and partners continue the assessment of 
resource damage, it is important to be aware that in some cases 
removing debris (biodegradable and non-hazardous) may cause more harm 
to sensitive marshlands than leaving it in place. If human safety is 
not a risk, the Service should let nature repair itself and invest 
their limited professional and financial resources on habitat 
restoration efforts. Cleaning up some material will harm more than help 
the marsh.

National Wildlife Refuges Critical to Migratory Birds
    Several of the National Wildlife Refuges (NWR) that are located 
along the coast of Louisiana are extremely important to migratory 
waterfowl. They include, from west to east, Sabine NWR, Cameron Prairie 
NWR, Lacassine NWR, Mandalay NWR, Bayou Sauvage NWR, Big Branch NWR, 
Delta NWR, and Breton NWR. All of these refuges provide essential and 
significant habitat to waterfowl, other migratory birds, and a host of 
other wildlife species. Some NWRs, such as Sabine, Cameron Prairie, 
Lacassine and Delta, are more important for waterfowl, whereas others 
like Breton are more important for colonial nesting water birds like 
Brown Pelicans and Royal Terns. We also note that, farther east, the 
Mississippi Sandhill Crane NWR provides key habitat for this unique 
subspecies of wetland-dependent bird.
    The coastal Louisiana refuges (federal and state) provide important 
natural as well as managed habitat for waterfowl. Over recent decades, 
managed habitat has become increasingly valuable given the large-scale 
alterations and loss of natural habitats related to causes previously 
discussed. Hence, DU recommends that adequate funds are used for, and 
that the Service places priority upon, the repair of habitat management 
infrastructure. In highly altered wetland systems, management is 
important to meet the needs of migratory birds, and proper habitat 
management depends on the refuges having operable levees, water control 
structures and pumping systems.

Responsibility of the U.S. Fish and Wildlife Service and the role of 
        Ducks Unlimited
    Ducks Unlimited stands ready to assist the federal government, and 
the U.S. Fish and Wildlife Service in particular, with the national 
effort to repair the massive hurricane damage along the Gulf Coast. DU 
has extensive experience in wetland restoration, including the design 
of wet soil management systems, wetland stabilization techniques, and 
topographic mapping. DU's professional staff includes some of the 
nation's most talented waterfowl biologists and wetland engineers along 
with a sophisticated Geographic Information Systems (GIS) mapping team. 
Our role will likely be one of a partner and professional service 
provider. We look forward to contributing to this national challenge.
    As the Service gears up to address the many landscape and 
infrastructure challenges that it faces on the various national 
wildlife refuges damaged by Katrina and Rita, we believe it appropriate 
to reflect on the ``public trust doctrine'' that defines the Service's 
roles and responsibilities. The concept of public trust, which evolved 
from English common law, addresses the issue of how our country manages 
its natural resources for the general public good. The principle is 
that the government (mostly federal) has an affirmative duty and 
responsibility to administer, protect, manage, and conserve fish and 
wildlife resources for the benefit of current and future generations of 
Americans.
    The public trust doctrine has evolved from a series of Supreme 
Court rulings dating back to the mid-1800s and various federal laws. 
The most notable federal laws that provide the basis of the public 
trust doctrine have been the Lacy Act, the Weeks-Mclean Law, the 
Migratory Bird Treaty Act of 1918, and various Migratory Bird 
Conventions and Treaties. All these court rulings and federal laws 
combine to outline the public trust responsibilities of the federal 
government. Most of the management responsibility falls under the 
purview of the U.S. Fish and Wildlife Service.
    As this massive hurricane recovery effort continues, DU hopes that 
the U.S. Fish and Wildlife Service will pay particular attention to 
restoring capacity to manage for its trust species.--Those of us who 
enjoy the great outdoors fully appreciate the wonderful job that the 
Service does while executing their duties and fostering the trust 
resources for which they are responsible. As priorities for repair and 
future management are established, the underlying natural resource 
should be given a very high priority.--The natural resources that are 
being protected as habitat for wildlife on our NWRS should be repaired, 
restored, stabilized and conserved while other repair and operational 
issues--are being addressed.

Conclusion
    As substantiated in the testimony above, the Louisiana coast is 
vitally important to North American migratory birds, especially ducks. 
Continued loss of this unique wetland habitat will have a significant 
negative effect on North American duck populations and other migratory 
birds. Our nation is expected to spend well over $100 billion to 
recover from the disaster caused by Hurricanes Katrina and Rita. It is 
imperative that a portion of these funds be directed to projects 
necessary to assure that Louisiana's population does not remain at risk 
in the future. This means restoring coastal wetlands and working to 
reduce future wetland loss.
    We recognize that the response to this hurricane will involve 
several federal agencies and span many years. On behalf of over 1 
million members and supporters of Ducks Unlimited, many of whom were 
directly impacted by these catastrophic storms, we join with the 
Chairman of the Resources Committee in recommending that the some of 
the funds made available through the President's February 16, 2006 
supplemental appropriations request be directed to natural resource 
restoration. Special priority should be given to funding repairs of 
damaged habitat management infrastructure at Gulf Coast NWRs of 
greatest importance to migratory waterfowl.
    The restoration of coastal wetlands in Louisiana has multiple 
benefits. These wetlands not only provide great wildlife and fish 
habitat but, even more importantly will serve as a natural hurricane 
and flood protection system to protect the huge taxpayer investment 
that will be made in the rebuilding of New Orleans, other Louisiana 
coastal communities, and the National Wildlife Refuges.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Mr. Young. We couldn't 
agree with your statement and your sentiment more.
    Mr. Moore? Welcome.

    STATEMENT OF W. PARKE MOORE, III, ASSISTANT SECRETARY, 
         LOUISIANA DEPARTMENT OF WILDLIFE AND FISHERIES

    Mr. Moore. Thank you, Mr. Chairman. I would like to show a 
brief PowerPoint if that is OK.
    Mr. Gilchrest. Sure. We would like to see it.
    Mr. Moore. I have also submitted written testimony.
    As Mr. Richard and I are residents of the State of 
Louisiana, we are going to look at this a little differently 
and a little more specific to our habitats in Louisiana. That 
is going to be the focus of my PowerPoint. We will run quickly 
through it. It will give you a flavor of what we are dealing 
with as our state's resource agency in the Department of 
Wildlife and Fisheries.
    [Slide.]
    Mr. Moore. First of all we will look at the storm path, and 
what I would like to do is refocus on the breadth of these 
storms and then the depth that we incurred damage. Katrina, a 
very quick storm. It was identified as a hurricane on August 
25. It hit us on August 29.
    Katrina impacted our coastal areas and our forested areas. 
We were impacted to the tune of about 300,000 acres and a 
number of wildlife management areas and facilities in the 
southeastern part of the state, and then our forested areas 
were hit especially hard, to the tune of about 50,000 acres in 
which we sustained 60 to 70 percent losses of our hardwoods and 
pine timbers.
    Katrina's storm was broad. I think that one good 
illustration of the impact that we incurred was just simply the 
diameter of the storm and the low barometric pressures.
    Then we move to Rita, which is about a month away. We 
didn't expect that. However, after Katrina we prepared as best 
we could in a couple of days. We started preparing Wednesday 
for Rita. It hit Saturday, and it hit the southwest part of our 
state.
    Now, Rita had impacts across the entire coastal area of 
Louisiana. Rita impacted a number of our wildlife refuges and 
wildlife management areas, about 350,000 acres, and also our 
forested areas in the location that is right along the Texas-
Louisiana border, about an 8,000 acre facility. It was one of 
the strongest hurricanes on record.
    Again, you can visualize with this picture that doesn't 
tell you the damage that it is going to do, but gives you an 
indication of the breadth of Rita and then the strength which 
imparted tremendous energy to our habitats and our properties 
in Louisiana.
    I will go now through the impacts of each storm briefly. We 
sustained severe browning of the marshes and flooded upland 
areas. Scalding and wind damage were the mechanisms by which 
this impact was incurred, primarily in our southeastern part of 
the state.
    You can see here that these are areas that are normally 
marsh areas that you wouldn't see as much water, but in 
Plaquemines and St. Bernard and down to Delacroix it was just 
entirely flooded. Water remained for a long time. We had oil 
spills all over the countryside, and this is some of the 
cleanup that was occurring.
    Our Pass a Loutre facility is at the mouth of the 
Mississippi River. As you can imagine, that was the first place 
that Katrina hit. Here is a very nice facility on a 115,000 
acre wildlife management area, a very productive area. Water 
was up about four feet inside the camp. The camp is elevated. 
You can see the debris and the damage that was incurred.
    Here are some historic photographs of some of the 
activities which the department engaged early in the 1950s in 
which we captured deer stocked areas, and the Pass a Loutre 
area was one of the sources for a lot of the deer that was used 
to restock the areas within the mainland Louisiana.
    Impacts. We have had impacts directly to various species. 
It was not as great as what you might think. However, we did 
have animal species that were killed.
    Now, when we talk about survival, the Pass a Loutre at the 
mouth of the Mississippi River with eight feet of water over 
all the land body. We assume that we lost our deer herd. We set 
cameras up at night to take different indices of what is our 
deer herd doing, and to our surprise we counted about as many 
deer as we have ever counted on Pass a Loutre in years earlier, 
which was a wonderful thing. How did those deer survive? We 
don't know. Were they on rafts of debris or in trees? They did 
it.
    During the day we set out corn stations to try to attract 
animals. This tells you the difficulty these animals had after 
the water receded in finding something to eat. Deer were not 
accustomed to feeding on corn or bait. They are looking for 
browse. You will see a little bit of recovery here in February 
in the middle of winter in south Louisiana.
    Again, here is a buck that is saying I don't know what this 
stuff on the ground is. I am looking for green.
    Rabbits are a species of high reproductive capability. We 
feel as though we sustained heavy damage to the rabbit 
population. However, those remnants will quickly respond to 
green-ups, and I think that we will be in good shape with the 
rabbit population.
    The upland impacts. Our timber loss was tremendous in our 
hardwoods with the trees blown over. In the softwoods or pines 
they were snapped about 20 feet above the ground. We are going 
to get into a very difficult dynamic, which is going to provide 
challenges to us as well as biologists and foresters in the 
field to manage those habitats that have been so massively 
destructed, and we are going to have to put hands on the ground 
to the extent that we can and minds on paper to try and figure 
out how to manage this property not only for the fauna that are 
produced, but also the people that enjoyed our properties.
    Here is one dynamic I think that is worth mentioning. This 
is an area of pine timber in Washington Parish, which is in 
that toe part of Louisiana above Slidell in which we had a 
young pine stand that was recently harvested and was not real 
dense. It was almost mowed down as though you got in there and 
rolled it over with a big roller.
    You will see that area, and then in the distance and off to 
the right you will see an area that has not been thinned. This 
may have implications to our forest practices in the future, 
but it gives you an idea about the impact on the various cover 
types that we had and then the silvicultural or forest 
practices that were employed prior to the storm.
    Here are some areas on the left. You will see a nice little 
what used to be a path with a number of cypress knees coming up 
and then the same area after Katrina on our Pearl River 
Wildlife Management Area. You will see the devastation that 
occurred. This is not in a path that a tornado would take. This 
is in very large areas.
    The same again on the Pearl River area due to Katrina. You 
will see the swept tree there and what is left around it. Not 
much after the storm.
    Turkeys are a real important resource that in Louisiana we 
try to manage. It is our other big game species. They are going 
to respond in various ways. Particularly with all the downed 
timber, we are going to have to curtail our seasons and 
actively manage for open areas and try to recover our turkeys.
    Rita. You will see the flooding soon after the storm. We 
got in the air, and we took pictures and made assessments. You 
will see the land area was just completely inundated. This 
would have been three days after the storm. The difficulty was 
that the Gulf stayed high. The water did not recede. We had 
water on our marshlands, forestlands and agricultural lands.
    Our Rockefeller Refuge is 70,000 acres plus in the 
southwest corner in Cameron Parish. You can't really get a good 
idea, but you will see that down in the lower right corner this 
is our west end camp. Storms ripped the roof off, and water 
poured in from rain. It was at 12 feet above mean sea level. We 
had damage from wave action and water coming into the floor and 
also from the roof.
    Our main complex to the left there is at 12 feet above mean 
sea level. We sustained minor damage to structures from the 
wind, but the wave action put a lot of water inside of our 
structures. Off to the left of the top picture you will see one 
of our at-grade facilities. That is our maintenance facility. 
That was just gutted. It was like a big washing machine with 
the wave actions.
    A couple of weeks after that we came back and landed with 
an amphibious airplane, and we were walking around that 
building. The refuge manager, Guthrie Perry, said look at that. 
In the back of the building there was a gap between the siding, 
and he said there is a truck in there. Well, we had not seen 
the truck for weeks of having been there, but it was amazing to 
see the dynamics.
    Again, another picture of the damage. You can see the storm 
had passed through the facilities in the upper left and just 
mixed things up in our workshops just like a washing machine 
action.
    A major, major problem that we are dealing with now is the 
salinity that was deposited on our ag lands and our forestlands 
and our marshland. This is a sugar cane field that had just 
come up and was salt damaged. We don't know what is going to 
happen to our ag properties.
    Fish inland. We had amberjack in fence lines.
    Farmers, ourselves and other agencies trying to get the 
water out had to break levees to let it out after it had surged 
over.
    Here is a big tractor-trailer rig over in the corner of 
this sugar cane field, debris throughout the field. You will 
see the line of the debris at the tree line. That is just an 
indicator of what we experienced.
    Here is a Cameron graveyard. Some of the graves fortunately 
did not open up. A lot of the graves were in cement tombs. They 
were opened up and caskets floating all over the countryside.
    Plant species. Well, most of our understory was impacted 
negatively due to the storm surge. Saltwater is going to burn a 
lot of these plants. Wind action/wave action physical damage 
was prominent.
    Here is an indication of what saltwater did to our fresh 
areas.
    These are just going to be some real quick pictures of 
scalds due to inundation by high saline waters.
    Again, more pictures. You will see a little new growth 
starting to sprout out. Louisiana is a very dynamic 
environment. We get quick recovery.
    This is a raft of debris. This is mostly vegetative debris. 
This is an area for comparison of what that area would look 
like without the saltwater.
    What do we do? We had to close seasons. We had to make 
adjustments. We base those on habitat surveys and collections.
    We went out, and not soon after the storms we started 
seeing hog tracks--not a good sign, may I add--deer tracks. 
That is a good sign. There was evidence of animals out and 
about. We collected animals to try to determine what their 
physical condition was. What did we need to do as wildlife 
biologists to come in and protect our herds?
    This is the stomach contents on the right of a deer that we 
killed in Plaquemines Parish. They were eating citrus. Citrus 
is not a good deer browse species.
    In Orleans Parish where there is no hunting by parish 
ordinance the habitat was severely damaged. We had a two and a 
half year old buck that was 82 pounds. That buck should be 150 
to 170 pounds. We had a six and a half year old doe that was 75 
pounds and a five and a half year old doe that was 65 pounds.
    This is not good. Deer were just totally consumed with 
looking for something to eat. They were not concerned about 
human activity and were oblivious to that. All they wanted was 
something to eat.
    Pen-raised animals, exotic deer and elk, were released into 
our environments, which is a major concern for disease 
transmission. We still have elk, and Louisiana is some of the 
historic range for the elk but no longer is. You know us 
Cajuns. We like to utilize big animals, and the elk didn't 
survive too well when we moved in.
    We also have a number of our exotic animals that are 
running loose. We are encouraging those farmers to bring their 
animals in one way or another.
    The success story here. What I told my staff in the Office 
of Wildlife, our wildlife biologists--we manage 1.5 million 
acres--is let us get back to business. Let us make sure the 
recreational opportunities for our citizens and those who 
recreate in Louisiana are afforded. We got back out taking care 
of business.
    We only had about an eight percent reduction in our license 
sales--you will see the various groups--which was amazing. At 
first we thought we might have a 50 percent reduction. Of 
course, we are not a general fund agency. We generate our own 
revenues, so this is a major concern for us.
    That is the end of my presentation on PowerPoint. If the 
Chairman has time, I have an annotated written.
    Mr. Gilchrest. I think at this point we will submit that 
for the record, Mr. Moore.
    Mr. Moore. Thank you, sir.
    [The prepared statement of Mr. Moore. follows:]

        Statement of W. Parke Moore, III, Assistant Secretary, 
   Office of Wildlife, Louisiana Department of Wildlife and Fisheries

    Mr. Chairman and distinguished committee members, thank you for the 
invitation to appear today and provide answers to your questions on 
issues important to my state, the Gulf Coast region and the nation. I 
am Parke Moore, III, Assistant Secretary for the Louisiana Department 
of Wildlife and Fisheries, Office of Wildlife.
    In prior testimony, news stories, and perhaps even through personal 
inspection of Louisiana and other states impacted by Hurricanes Katrina 
and Rita, you have heard of and seen the widespread human tragedy and 
damage associated with these storms. Hurricane Katrina had a storm 
surge ranging from 4-32 feet while Hurricane Rita's surge was between 4 
and 16 feet. The sheer magnitude of the area impacted is among the more 
striking facts of these two storms. For example, in 1980 when Mount St. 
Helens erupted, the impact zone was estimated to be about 230 square 
miles. In contrast, Hurricanes Katrina and Rita impacted about 200,000 
square miles in six southern states, or in the neighborhood of 850 
times the area impacted by the Mount St. Helens' eruption. In other 
words, we are talking about an area that's larger than the entire State 
of California.
    Louisiana is known as the Sportsman's Paradise. Collectively our 
marshes, coastal wetlands and bottomland hardwood forests are the most 
important waterfowl wintering area in North America. They also have 
some of the largest alligator, river otter, and waterbird populations 
in the country. They are enormously important to a multitude of other 
wetland species. Even though our forests are not always aerially the 
most expansive relative to many other states, they provide critical 
habit for hundreds of species of neotropical migrant songbirds, not 
only because of their strategic location, but also because of their 
high quality and diversity.
    I would like to describe the habitat impacts in Louisiana and needs 
in two broad categories: coastal marshes and forest as well as 
potential impacts on wildlife.

Marsh
    In Louisiana, we have approximately 3.5 million acres of coastal 
wetlands (marshes and forested wetlands). Although estimates vary 
somewhat, approximately 20 square miles of land is lost each year 
through coastal erosion, saltwater intrusion, subsidence, and other 
factors. Hurricanes Katrina and Rita resulted in the loss of 
approximately 100 square miles of coastal wetlands in Louisiana. These 
losses have serious ramifications for the long-term health of our 
marshlands, particularly when landmass is limited. Barrier islands, our 
first line of protection from storm surge, and sand beaches and 
shorelines were dissected and often times washed away. Marshland was 
literally moved, rippled like an accordion, ripped apart due to winds 
and wave action, and acted as a depository for all types of vegetative 
and other debris. Within the marsh complex, considerable marsh 
management infrastructure in the form of major levees for water 
management basins, major impoundment levees, smaller interior levees, 
terraces, and water control structures were extensively damaged in a 
number of locations. Federal funding and permit expeditions to complete 
repairs to these types of structures are important for remediation of 
damaged marsh habitat as well as protection of freshwater resources 
used for agricultural purposes such as rice farming.
    The Parishes of Plaquemines, St. Bernard, Orleans, and St. Tammany 
were impacted significantly by Hurricane Katrina (Jefferson Parish to a 
lesser extent). Marshes throughout these Parishes were inundated by a 
tidal surge of high salinity water. Although the direct physical damage 
to the wetlands have not yet been quantified, initial over-flights 
indicated extensive damage to wetland areas, in particular the 
Delacroix marshes in Plaquemines and St. Bernard Parishes. An estimated 
600,000 acres of primarily intermediate and brackish coastal marsh 
habitat were impacted.
    Hurricane Rita's storm surge flooded the entire coastal wetlands, 
with the parishes in southwest Louisiana being most affected. The 
tremendous tidal surges associated with Rita flooded millions of acres 
of coastal wetland habitat with high salinity flood waters. Extensive 
inland fresh marshes in southeast Louisiana were likewise flooded with 
high salinity water.
    The overall impact of the storms on coastal marsh habitats will 
take some time to assess. Direct physical damage to wetlands through 
scour, scrapes, erosion and rolling will be best assessed through 
digitizing land/water ratios before and after the storm events. The 
excessive salinities measured immediately following the storm surge in 
southwest Louisiana are cause for concern. Salinity levels from 8-20 
ppt in fresh water marshes and 15-24 ppt in the intermediate and 
brackish marshes of Cameron and Vermilion Parishes will likely have 
significant impacts on vegetative composition in both the short and 
long term. Even the moderate salinities of 3-5 ppt in the fresh marshes 
of Terrebonne and other eastern parishes are reason for concern. The 
critical factor will be how long these high salinities persist before 
drainage and moderation of salinities occurs. Many of the marshes in 
southwest Louisiana drain through limited outlet points, thus 
increasing the flood period and further impact on vegetation.

Forest
    The forest resources in the southeastern Louisiana parishes were 
the heaviest impacted from Hurricane Katrina. The forest resources in 
southwest and west-central Louisiana were the heaviest impacted from 
Hurricane Rita. Calcasieu Parish (50%) was damaged proportionally the 
most, followed by other parishes in southwest Louisiana.
    The Louisiana Department of Agriculture and Forestry loss estimates 
were based on post Hurricanes Katrina and Rita flights and analysis of 
forest resource data available for these parishes. In total, these 
storms damaged the equivalent of over 1,000 years worth of timber 
harvest for the reported parishes. This is based on last year's harvest 
by softwood and hardwood components within a parish. Mature bottomland 
hardwood areas within the affected areas generally received more 
damage. Recovery efforts will likely continue for the next 24 months, 
with most salvage operations winding down after 18 months. The recovery 
is and should be a real concern for us as stewards of the wildlife 
resources of the state.
    Private landowners took a serious loss in timber revenue as much of 
the salvage value is only half or less of the standing timber value. 
The Louisiana State University Cooperative Extension Service estimated 
the cumulative timber losses of the two storms to be in excess of $800 
million, about 65% of which was contributed to Hurricane Katrina. 
However, recovering any of this revenue is going to be difficult for 
many landowners as such tremendous losses at one time make it nearly 
impossible to accomplish a total salvage of most tracts. During the 
initial Forest Recovery meetings held by Louisiana Department of 
Agriculture and Forestry (LDAF) and the Louisiana Forestry Association, 
some participants active in disaster recovery efforts in the southeast 
U.S. noted that salvage of approximately 35% of most large scale 
disaster areas is an average attainable goal. Various constraints with 
such operations, including weather conditions, insufficient logging 
resources in the area and mill demands due to resource availability 
make it difficult to accomplish more.
    The private landowner must make some hard decisions on what to do 
with their damaged property, a critical decision that will impact 
wildlife resources in these areas for years to come. Inability to 
obtain salvage of their timber may result in insufficient funds 
available to the landowner to accomplish reforestation operations, 
possibly leading to natural stand reestablishment or offering of the 
land for alternative uses, such as residential or commercial 
development. Though the former may favor naturally regenerated forests, 
habitat fragmentation and habitat quality degradation for many species 
dependent on larger forested blocks of habitat will continue if the 
latter option is implemented. St. Tammany Parish was the most rapidly 
developing parish in the state prior to Hurricane Katrina and should 
continue to be with the resettlement of over 150,000 people from the 
south shore of Lake Pontchartrain. The adjacent parishes, Washington 
and Tangipahoa, also received a large influx of displaced citizens, 
which will place additional land use conversion pressure on the forest 
resources of those parishes as well. Population data from the 1990 and 
2000 censuses indicate rapid growth in Allen Parish with moderate 
growth in Calcasieu and Beauregard Parishes. With the loss of these 
natural resources, aesthetic qualities that attracted people into these 
rural areas will decline as well.
    As the forest resources are also important to forest industry for 
long-term productivity, some industry officials are equally concerned 
that landowners will now find new uses for their land because of the 
high cost of recovery and reforestation. As a way to address this 
serious concern, regional forestry officials requested changes to 
federal aid regulations to provide timberland owners assistance 
following natural disasters. To this end, we would like to thank 
Congress for its support of the Emergency Forestry Conservation Reserve 
Program (CRP) to assist in restoring the damaged resources, thereby 
perpetuating quality forested habitat. This is critical support for 
many private landowners who, without such help, would likely be unable 
to reforest their seriously damaged woodlands. We do encourage Congress 
to adequately fund the technical assistance aspect of this 
reforestation effort. Without sound technical assistance, landowner and 
wildlife benefits from reforestation efforts can be seriously 
compromised. If accomplished successfully, Hurricanes Katrina and 
Rita's devastation of yesterday's forest resources could turn out to be 
improved habitat conditions for tomorrow's wildlife resources in the 
long term.
    Public lands within the impacted areas of these parishes, 
specifically LDWF's Wildlife Management Areas (WMAs) were also 
proportionately damaged relative to their position in the storms' path. 
Pearl River WMA incurred the greatest damage (60-90% canopy opening 
within the non-cypress/tupelo sites) from Katrina, being located on the 
eye path of the storm, while Sandy Hollow WMA received light damage 
overall and the other noted areas in the east basically experienced a 
light brushing. Sabine Island, a state-owned area on the Texas border, 
received heavy damage from Rita, similar to that which occurred on 
Pearl River WMA from Katrina. Salvage of the LDWF public properties was 
put on hold to allow as much salvage as possible to occur first on the 
private lands within the region. However, as site evaluations 
progressed on the WMAs, especially Pearl River WMA and Sandy Hollow 
WMA, it became apparent that a real need for some limited salvage 
existed and would benefit the wildlife resources as well as the human 
resources utilizing these areas in the short and long term. Thus, after 
two months, the LDWF began aggressively pursuing contracts to 
accomplish a limited salvage on these two areas. Additional work in 
this area may require the need for federal assistance.
    LDWF's wildlife/forest managers remain concerned about the impact 
of the tidal surge waters on the lower forest resources on Pearl River 
WMA. A serious lack of rainfall post Katrina and Rita appears to have 
limited the flushing of salt deposited during the tidal surge. Field 
surveys generally found a lack of vegetative response in these areas 
compared to the vegetative response witnessed on the forest area not 
covered by the tidal surge. This suggests a definite impact, possibly 
long term. Another major concern is the potential spread of Chinese 
tallow tree (an aggressive non-native invasive species) in the tidal 
impacted forests. Native canopy species were noted as the major 
regeneration component in the non-tidal influence damaged forest, yet 
Chinese tallow was the primary regeneration component in the tidal 
influenced damaged forest on the WMA. In southwestern Louisiana, 
Chinese tallow is already a common forest component at the fringes and 
it is likely that encroachment toward the forest interior is 
inevitable. This has a potentially negative long-term impact on the 
native forest. Wildlife habitat values associated with the native 
forest composition will be diminished greatly if Chinese tallow becomes 
the dominant canopy tree in these newly regenerating forests. Federal 
funding would be required to control invasive species such as Chinese 
tallow in the event of increased spread as a result of hurricane 
damage.
    The damage to the forest resources on Sandy Hollow WMA was not as 
extensive, but more concentrated toward the older longleaf pine 
component on the WMA. The loss of this component will hurt the seed 
production on the area, but the greatest loss is to wildlife species 
that require the older age class forests. Older longleaf pine forest is 
limited in the Florida Parishes. Management actions, especially the 
extensive amount of prescribed burning accomplished annually on this 
area, also will be hampered because of the downed trees. If LDWF is 
unable to salvage on this area (and to date none has been salvaged), 
increased management costs, especially in the prescribed burning 
program, will be incurred. Extra measures will have to be taken to 
insure safety to those employees carrying out these practices as well 
as to prevent fire escaping to adjacent lands.

Wildlife
    Assessing impacts on wildlife is extremely difficult because 
species have different requirements. After the eruption of Mt. St. 
Helens, scientists believed that everything in the path of rocks, 
volcanic gas and steam that were released had been decimated. However, 
upon field inspection, signs of life were found, so it was with 
Hurricanes Katrina and Rita. However, a number of animals did perish in 
the storms, including shorebirds, waterfowl, wading birds, deer, 
squirrels, rabbits, raccoons, opossums, alligators, nutria, and muskrat 
and other species. So, as with Mount St. Helens, our and other agencies 
begin the long process of documenting the wildlife impacts of the 
Hurricanes.

Wild Alligator Harvest Impacts
    The opening of the 2005 wild alligator season was delayed due to 
the impact of Hurricane Katrina on alligator hunters, alligator 
processors and dealers, and on the entire infrastructure needed to 
conduct the statewide harvest season. Hunters in numerous southeastern 
parishes were displaced and dealers and processors were unable to 
obtain refrigerated trucks, truck drivers, ice, fuel and other required 
supplies. The damage to the banking infrastructure hindered the 
dealers' capability of obtaining sufficient capital to buy alligators. 
Additionally some dealers could not access their computer data bases 
and others were without electrical service.
    Hurricane Katrina impacted alligator hunters primarily in 
Jefferson, Plaquemines, St. Bernard, Orleans, and St. Tammany Parishes. 
Many of the alligator hunters lost their homes and simply were unable 
to harvest alligators in 2005. Of the allotted harvest in these 
parishes, an estimated 1,800 alligators (valued at nearly $435,000) 
were not harvested. Under normal circumstances these animals would move 
through buyers and processors, creating jobs for workers processing, 
sorting, grading and shipping these skins to tanners. Other lost income 
includes businesses selling supplies (gas, food, bait, etc.) to 
hunters. Future harvest in these areas may be reduced due to loss of 
quality alligator habitat. Additionally, at least one processing plant 
in Venice was destroyed.
    Hurricane Rita's storm surge flooded marshes throughout coastal 
Louisiana, delaying efforts of alligator hunters to complete their 2005 
harvest allotments. Hunters in Cameron, Vermilion, and Calcasieu 
Parishes faced a catastrophic situation with severely flooded marshes, 
loss of homes and displacement for months. Only a portion of the 
alligator hunters in southwest Louisiana who had not completed their 
harvest prior to Rita were able to resume their hunting activity. An 
estimated 1500 alligators valued at $362,000 were not harvested. 
Additional economic impact includes loss of jobs in the processing 
industry and loss of sales of supplies to hunters. Harvest quotas in 
the affected areas will likely be reduced in future years due to the 
impact of high salinity flood waters on fresh, intermediate and 
brackish marshes. Processing facilities in Cameron and Vermilion were 
damaged and at least one facility in Cameron Parish was destroyed.

Wild Alligator Populations/Nest Production
    Hurricane Katrina may impact wild nest production and future egg 
collections in Plaquemines, St. Bernard, Orleans and St. Tammany 
Parishes. In these parishes an estimated 3,700 nests are produced on 
privately owned wetlands while an estimated 750 nests are produced on 
public lands. While all permitted 2005 egg collection activities were 
completed prior to Hurricane Katrina, it is anticipated that the 2006 
nest production and subsequent egg collections will be impacted. The 
marshes in Plaquemines and St. Bernard Parishes in the area of the 
Caernarvon Freshwater Diversion were damaged by storm surge and 
saltwater intrusion. Initial aerial observations indicated significant 
physical marsh damage to large areas of vegetated wetlands. This area 
has been particularly productive in recent years and nest production 
may be impacted significantly in selected areas in 2006 and in future 
years.
    Virtually all of coastal Louisiana was flooded from the storm surge 
associated with Hurricane Rita. An estimated 37,700 alligator nests are 
produced annually on nearly three million acres of coastal alligator 
habitat. The marshes in Cameron, Vermilion and Calcasieu will be most 
affected by the high salinity flood waters. Privately owned alligator 
habitat in these parishes totals over 800,000 acres and annually 
produces nearly 10,000 alligator nests. Storm impacts to these wetlands 
include direct physical damage to selected areas and high salinity 
flood waters has scalded and caused damage to thousands of acres of 
fresh marsh and intermediate marsh vegetation. Further habitat analysis 
to assess vegetative recovery in spring 2006 will be necessary before 
we can realistically assess impacts to future alligator populations and 
subsequent nest production.
    We are concerned that the high salinity flood waters that inundated 
large expanses of brackish, intermediate and fresh marshes in southwest 
Louisiana for an extended period of time following Hurricane Rita may 
have caused some additional mortality to alligators. Particularly 
vulnerable would have been immature alligators that were unable to 
disperse to areas of lower water salinity. It is fortunate that through 
the Department's wild alligator egg collection program, alligator 
farmers had collected over 500,000 alligator eggs during the summer of 
2005. Alligators hatched from these eggs were nearly all saved from 
storm impacts, as they are being raised in environmental controlled 
buildings on alligator farms throughout the state. As per the 
Department's regulations, 14% of these hatchling alligators will be 
released in 2007 as juvenile/subadults to maintain the state's wild 
alligator population.
    Long term impacts of Hurricanes Katrina and Rita to wild alligator 
populations are a concern for the Department. Specific concerns 
include: 1) impact of water and soil salinity on marsh vegetation, 2) 
impact of water salinity on alligator dispersal, survival and nest 
production, and 3) impact of physical marsh damage to alligator habitat 
quality.

Alligator Farming Industry Impact
    Numerous alligator farms in several southeastern Louisiana parishes 
were affected by Hurricane Katrina. Some 18 farms with a collective 
December 2004 inventory of over 285,000 alligators were impacted. 
Hurricane Rita affected 13 alligator farms with collective inventories 
of about 150,000 alligators as of December 2004. As per communications 
with most affected farmers, direct mortality from either hurricane was 
not excessive; farmers were proactive and when possible moved 
alligators to other locations. However structural damage to numerous 
farms was significant and extensive losses in terms of equipment were 
noted (tractors, storage sheds, pumps, generators, hot water heaters, 
walk-in freezers, refrigerators, incubators, barns, etc.). Farmers 
estimated these physical plant losses at nearly $2.0 million. Some 
alligators escaped due to rising flood waters. An estimated 8,400 
alligators escaped as farm facilities were inundated; exact counts of 
these losses can only be done once the entire year's crop has reached 
market size. Three small farms were completely destroyed.
    The long-term effects of these stresses on alligator hide quality 
could appear over the next one to two years. Alligator growth could be 
adversely affected by the recent stressors and possible loss of heating 
capabilities on farms.
    Some alligator farmers are also dealers, and hurricane damages were 
incurred to dealers' warehouses, check stations and processing 
facilities. These processing facilities are used year round to process 
farm, wild, and nuisance alligators. Reports from various dealers 
indicated that wild hide inventories were secured immediately after the 
storms and moved to safe locations.
Impacts to Birds
    Coastal Louisiana is composed of many types of critical bird 
habitat including the barrier islands, coastal marshes and forested 
wetlands. Some of these bird species include colonial nesting 
waterbirds (terns, herons, egrets, brown pelicans, etc.), neotropical 
migrants, shorebirds and waterfowl. The hurricanes had a major impact 
on many of the habitats utilized by these species due to direct loss or 
degradation and/or saltwater inundation.
    Of utmost concern are the hurricane's effects on nesting habitat of 
colonial waterbirds. Especially hard hit were the islands of the 
Chandeleur chain, where most of the sandy beaches were lost. It is 
anticipated that some of this beach area may recover somewhat after the 
sand has been reworked over the next six months to a year. The loss of 
sandy beaches on the barrier islands may cause many colonies to be 
abandoned due to the limited availability of this type of habitat in 
coastal Louisiana. If there is no other available nesting habitat in 
the vicinity of the former colony sites, many individuals may be forced 
to forego breeding in 2006.
    The barrier islands of the Louisiana coast also provide nesting 
habitat for several species of shorebirds and are essential foraging 
and resting habitat during the spring and fall migrations for a 
multitude of neotropical migrant species and shorebirds. Numerous 
shorebird species utilize barrier islands as wintering habitat 
(plovers, sandpipers, curlews, etc.) including the threatened piping 
plover.
    The Louisiana Department of Wildlife and Fisheries recommends that 
all colonial nesting waterbird colonies and plover sites be monitored 
for nesting success from 2006 through 2010, which will require federal 
funding to accomplish. Baseline data from the 2005 comprehensive 
colonial nesting waterbird survey of the Louisiana coast should be used 
as a benchmark to compare the relative sizes and species composition of 
the colonies in 2006. Every effort should be made to fast track all 
coastal restoration projects to restore as much nesting habitat in the 
short term as possible. Additionally a representative sample of 
individuals should be taken for contaminant testing because of the 
numerous oil spills that occurred on the Louisiana coast and the Gulf 
of Mexico during both Hurricanes Katrina and Rita.
    Louisiana contains one of the primary flyways for both the spring 
and fall migration of neotropical migrant songbirds. The coastal 
forests of Louisiana provide critical stopover habitat for the spring 
migration of species flying non-stop across the Gulf of Mexico and 
important feeding areas for these species' southward migration. Radar 
data analysis by USGS after these storms revealed a dramatic shift in 
neotropical migrants from hard hit forested areas to areas of less 
damage. A survey methodology needs to be developed (either point counts 
or constant effort mist-netting) to determine the abundance of 
neotropical migrant songbird species present within this forest type 
post hurricane damage which would require federal assistance.
    The bald eagle is commonly found nesting in dominant cypress trees 
in the southeastern coastal marshes of Louisiana. The greatest impact 
to the bald eagle from Hurricanes Katrina and Rita would be the loss of 
nests. However early indications with the 2006 nest counts documented 
minimal numbers of damaged or destroyed nests. These impacts may be 
mitigated by the fact that most nesting pairs have several nests within 
their territory. The secondary impact to both mature and immature bald 
eagles could be contaminant loading from the numerous oil spills that 
occurred on the coast of Louisiana. LDWF should continue to conduct its 
yearly bald eagle surveys of known nesting locations and search for new 
nests at sites where nest trees have been destroyed. Additionally LDWF 
recommends that blood samples be taken from eaglets and all injured 
eagles beginning in 2006 to determine if contaminant loading has 
occurred which would require federal assistance.

Recovery and Rebuilding Assistance
    There will be many opinions both inside and outside of government 
about what to do. Recovery and rebuilding will be a long-term endeavor; 
however, action by Congress is needed now before restoration efforts 
can begin. Many who are considering reinvestment in coastal Louisiana 
are looking for acknowledgment that the federal government recognizes 
the importance of the resources of the area and the vital need to 
protect these resources. Recovery efforts must include rehabilitating 
coastal wetlands and assessing the wildlife and natural resources where 
direct impacts have been documented.
    Coastal restoration and enhanced storm and flood protection 
projects are presently being reevaluated at all levels of government 
and in the public forum. Wildlife and resource managers must play a 
role in future coastal planning to ensure that potential impacts of 
these projects on the wildlife and natural resources are considered.
    I have presented the importance of the coastal marshes, forested 
wetlands and some of the wildlife species that depend on these 
habitats. I have presented how these habitats and resources have been 
impacted due to damage from the storms, and have suggested ways that 
Congress can help.----Federal funding will be a key to adequately allow 
resource managers to assess damages to the resources and habitats and 
to begin the process of rebuilding and restoring these habitats and the 
multitude of wildlife species that utilize them. Your consideration is 
appreciated.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much. It was very 
informative.
    Mr. Moore. I appreciate it.
    Mr. Gilchrest. Mr. Hirsche?

             STATEMENT OF EVAN HIRSCHE, PRESIDENT, 
              NATIONAL WILDLIFE REFUGE ASSOCIATION

    Mr. Hirsche. Thank you, Mr. Chairman.
    My name is Evan Hirsche. I am President of the National 
Wildlife Refuge Association, and on behalf of the NWRA and its 
membership comprised of current and former refuge 
professionals, nearly 110 refuge friends, affiliate 
organizations and thousands of concerned citizens throughout 
the U.S., thanks for the opportunity to testify regarding 
damages to America's national wildlife refuges caused by 
Hurricanes Katrina and Rita.
    At this point, Mr. Chairman, I would like to submit my 
written testimony for the record.
    Mr. Gilchrest. Without objection.
    Mr. Hirsche. Thank you.
    As we know, in August of 2005 Hurricane Rita, the worst 
natural disaster in U.S. history, caused unprecedented damage 
to our national wildlife refuges in the region. In the wake of 
Katrina, 16 refuges were closed. Only a few weeks later, 
Hurricane Rita, as we just saw, slammed into Louisiana near the 
Texas border causing further damages.
    While Rita and Katrina caused extreme damages to refuges 
along the coast, the effects were also felt as far inland as 
Arkansas. All told, facility and natural resources damages from 
the 2005 storms exceed $270 million. This represents 
approximately 70 percent of the refuge system's total Fiscal 
Year 2006 operations and maintenance budget. In short, we are 
quite literally looking at an unmitigated disaster.
    Before I move on, I did also want to recognize the Fish and 
Wildlife Service's role in serving on the front lines in 
assisting with humanitarian efforts, a herculean effort 
certainly.
    Four hurricanes in 2005 affected 66 national wildlife 
refuges in eight states with damages to facilities and 
infrastructure totaling about $170 million. In addition, 
damages to habitat and natural resources on refuges are 
estimated by Fish and Wildlife to be about $88 million.
    However, estimates for cleanup range from $10 to $50 
million at Sabine when we are talking about HAZMAT materials 
being distributed on several refuges. Quite frankly, if the 
refuge system doesn't receive sufficient emergency funding to 
recover from these damages we fear that refuges around the 
country are going to pay the price. They are already stretched 
to their breaking point, and we are concerned that they will 
not recover from the excessive burden that these storms had to 
an already crippling funding situation.
    Mr. Chairman, as I think you know, the national wildlife 
refuge system as a whole continues to be hobbled by a lack of 
funding and resources with a top-tier maintenance and 
operations backlog approaching $2.7 billion. The hurricane 
damages simply add insult to injury for an already beleaguered 
system.
    That said, we do appreciate that President Bush has 
requested $132 million for facilities repair in the most recent 
emergency supplemental. If approved by Congress, it will 
certainly go a long way to meeting fundamental repair needs. 
Nevertheless, the Refuge Association does urge Congress to 
appropriate an additional $88 million for habitat and resource 
restoration on these hurricane-affected refuges.
    I wanted to go to the PowerPoint. There we go.
    [Slide.]
    Mr. Hirsche. At this point I wanted to talk about a couple 
individual refuges that illustrate some of the problems we are 
looking at. This first is a photo on the ground at Sabine, 
which we have heard quite a bit about. There we have 1,400 
barrels of toxic materials sinking into the marsh. The question 
is how did all this get there?
    Next slide, please?
    Part of it, we are looking here at the town of Holly Beach, 
which is on the coast. The border of the refuge begins about a 
mile north of this photograph. This was before the storm.
    If we can go to the next slide, we will see the town of 
Holly Beach after the storm. That gives you a sense of where 
some of this debris came from.
    Next slide, please?
    What happened was that a whole lot of debris washed into 
the refuge, and what you are looking at here on the left there 
is a green line which denotes a water control structure in the 
refuge. On the right of that is the debris that washed in. This 
is a six mile long debris field that includes everything from 
oil and propane to bleach and chlorine. There are several 18-
wheelers in there, and of course refrigerators, ovens and other 
materials.
    Next slide, please?
    Here you have a good sense of the ``white goods'' strewn up 
and down the refuge. It is just an enormous problem, and 
clearly the hazardous debris poses a serious risk to wildlife 
while also putting groundwater for local people at risk.
    The Fish and Wildlife Service did commission an independent 
report on the prospective cleanup, what the cleanup is likely 
to look like. The report says, and I quote, ``It is likely that 
without the address of these issues Sabine will be at 
significant risk of chemical and physical damages for 
decades.''
    Next slide, please?
    Next I am going to go through a few photos showing Breton 
Island or Breton National Wildlife Refuge, which is a part of 
the Chandeleur Islands. These are before and after photos.
    Next, please? Next, please? And another? I think we have 
one more. And another? I think that is it for the photos. Thank 
you.
    That gives you a sense of what the damage is to the 
Chandeleur Islands. Biologists estimate that 50 to 70 percent 
of the habitat on these islands has been completely washed away 
with nothing but open water in its place. This is the second 
oldest refuge in the system established by President Theodore 
Roosevelt and hosts 15 percent of the world's nesting ground 
penguins and up to 30 percent of the world's nesting sandwich 
terns. I am sorry. Did I say penguins? Unbelievable. We are 
watching you.
    Mr. Hirsche. You know, that is the second time this 
happened to me. All right. Pelicans. Thank you.
    Mr. Gilchrest. I heard pelican. Up here we heard pelican.
    Mr. Hirsche. Fortunately, somebody was reading along on my 
testimony.
    As for direct impacts to wildlife, we know that wintering 
waterfowl numbers are down by about 75 percent at Bayou Savage 
within the New Orleans city limits, 70 percent at Delta 
National Wildlife Refuge, and 70 percent of endangered red-
cockaded woodpecker nesting trees were lost at Big Branch Marsh 
also near New Orleans.
    While the ramifications to wildlife are obviously of 
paramount concern to the Refuge Association, we also recognize 
the important value of refuges to people. According to the Fish 
and Wildlife Service, visitation at the affected refuges 
exceeded 4.5 million people in 2005, including more than 
250,000 at Sabine. They also contribute heavily to the local 
economies.
    I wanted at this point to reiterate Director Hall's earlier 
comments about the importance of wetlands and coastal marshes 
in protecting communities. We think it is vitally important to 
recognize that refuges play an instrumental role in this regard 
and should be viewed as a benefit not only to wildlife, but 
also to people and communities and that it is vitally important 
that we address these wetland restoration issues sooner than 
later.
    Finally, I did want to say that with total damages 
exceeding $270 million, the refuge system is simply unable to 
absorb the cost of cleanup and recovery, so we strongly urge 
Congress to pursue additional funding in supplementals to 
address these vital issues.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Hirsche follows:]

                 Statement of Evan Hirsche, President, 
                  National Wildlife Refuge Association

    Mr. Chairman and Members of the Subcommittee:
    My name is Evan Hirsche, and I am the President of the National 
Wildlife Refuge Association (NWRA). On behalf of the NWRA and its 
membership comprised of current and former refuge professionals, nearly 
110 refuge Friends organization affiliates and thousands of concerned 
citizens throughout the United States, thank you for the opportunity to 
testify on the issue of damage to America's national wildlife refuges 
caused by hurricanes Katrina and Rita.
    The National Wildlife Refuge System is the only network of Federal 
lands managed for the conservation of fish, wildlife, plants and their 
habitat. President Theodore Roosevelt created the first national 
wildlife refuge (NWR) in 1903 on Florida's Pelican Island to protect 
brown pelicans as well as egrets and herons from commercial hunting. 
Today, the Refuge System, administered by the U.S. Fish and Wildlife 
Service (FWS), consists of 545 refuges in all 50 states and most U.S. 
territories.
    On August 29, 2005, Hurricane Katrina, the worst natural disaster 
in U.S. history, struck the Gulf Coast, causing unprecedented damage to 
national wildlife refuges in the region. In the wake of Katrina, 16 
national wildlife refuges were closed. Only a few weeks later, 
Hurricane Rita slammed into Louisiana near the Texas border, causing 
further damage to refuges in the Gulf. Hurricanes Rita and Katrina 
caused extreme devastation along the coast; however, the effects were 
also felt as far inland as Arkansas, where refuges experienced storm-
related impacts such as damaged roads from flooding, downed trees and 
debris build up.
    Mr. Chairman, before I discuss the damages to refuges by hurricanes 
Katrina and Rita, I believe it is important to recognize that the U.S. 
Fish and Wildlife Service was out in front on conducting humanitarian 
efforts and helping local communities immediately following these 
terrible storms. The Service brought its equipment and expertise to aid 
those devastated by Katrina and Rita, including providing 20,400 meals, 
disposing of more than 100 truckloads of debris, and housing Red Cross 
and Federal Emergency Management Agency (FEMA) workers, among other 
things. While FEMA provided reimbursement for certain activities, the 
total non-reimbursed costs to FWS for incident operations was 
approximately $6.6 million.
    Hurricanes in 2005 (Dennis, Katrina, Rita, and Wilma) affected 66 
national wildlife refuges, located in eight states (Alabama, Arkansas, 
Florida, Georgia, Louisiana, Mississippi, South Carolina and Texas), 
with damages to facilities and infrastructure totaling approximately 
$170 million. In addition, damages to habitat and natural resources on 
refuges are estimated by FWS to be approximately $88 million. Costs 
related to hazardous materials (HAZMAT) and debris on refuges remains 
mostly unknown. However, cost estimates for surface clean up and 
removing subsurface tanks range from $10 million to $50 million at 
Sabine National Wildlife Refuge in Louisiana alone.
    Total facility and natural resource damages from the 2005 storms 
exceed $270 million. This represents approximately 70% of the Refuge 
System's total FY2006 Operations and Maintenance funding ($382 
million). If the Refuge System does not receive sufficient emergency 
funding to recover from the damages caused by hurricanes Katrina and 
Rita, we fear that refuges throughout the country--already stretched to 
the breaking point--will not recover from the extensive burden the 
storms add to an already crippling funding situation.
    The National Wildlife Refuge System as a whole continues to be 
crippled by a lack of sufficient funding and resources, with the top-
tier operations and maintenance backlog alone registering at $2.7 
billion. Funding shortfalls limit the ability of refuges to 
successfully conduct important biological programs and hire critical 
staff, while also hindering opportunities for the public to engage in 
compatible wildlife-dependent recreation.
    While significant strides were made to reduce the budgetary 
shortfall in connection with the 100th anniversary of the National 
Wildlife Refuge System in 2003--and we extend our appreciation to 
Congress and members of this Committee for those increases--funding 
since that time has been stagnant. Recently, the Cooperative Alliance 
for Refuge Enhancement (CARE), a diverse group of national conservation 
and sporting organizations that I chair, sent a letter to Capitol Hill 
recommending that Congress approve hurricane supplemental funding for 
the Refuge System of at least $132.4 million, as requested by President 
Bush. While this amount does not cover all hurricane damage costs, when 
combined with the $30 million already approved by Congress, it should 
provide for the fundamental facility needs of hurricane-affected 
refuges. Nevertheless, the NWRA and CARE urge the Congress to 
appropriate an additional $88 million to address habitat and natural 
resource damage on hurricane-affected refuges in a third supplemental 
funding bill this year.
    Hurricanes Katrina and Rita resulted in tremendous destruction of 
national wildlife refuge facilities and natural resources. At Sabine 
NWR, where the eye of Hurricane Rita passed directly over the refuge, 
five of eight buildings were immediately condemned, while the remaining 
3 need extensive repairs before they can be occupied again. In fact, 
NWRA staff and other CARE representatives visited Sabine after the 
storm and witnessed the extensive damage to boardwalks, bathroom 
facilities and the headquarters buildings firsthand. With the damage to 
public-use facilities and extensive distribution of HAZMAT, it is clear 
the refuge poses a public health risk and must remain closed until 
these issues are resolved. At Delta NWR in Louisiana, where Hurricane 
Katrina made its landfall, the headquarters building, along with all 
refuge facilities, was almost completely destroyed. FWS staff returning 
after the storm were greeted by a refuge boathouse crushed beneath a 
900-ton barge. Big Branch Marsh NWR in Louisiana also suffered 
extensive damages. The refuge needs funding to replace a number of 
vehicles, and repairs are necessary for the visitor center, 
administrative building and roads, among other things.
    Habitat and natural resource damage from hurricanes Katrina and 
Rita was equally devastating and widespread. Vast areas of coastal 
wetlands in the Gulf Coast region have been converted to open water by 
the two storms. According to the FWS, satellite imagery of Southeast 
Louisiana shows that more than 100 square miles of coastal wetlands 
have been transformed from marsh to open water. In addition, 
approximately 150,000 acres of coastal wetlands and bottomland forests 
on national wildlife refuges were damaged. Aquatic habitats are choked 
by debris, silt, oil, chemicals, and other hazardous wastes. Wintering 
waterfowl numbers are down 75% at Bayou Sauvage NWR in Louisiana and 
70% at Delta NWR, while 70% of endangered red-cockaded woodpecker 
nesting trees were lost at Big Branch Marsh NWR.
    At Breton NWR in Louisiana, which includes all of the federally 
owned Chandeleur islands, an estimated 50-70% of habitat has been 
completely washed away, with nothing but open water in its place. 
Breton is the second-oldest refuge in the System, established by decree 
by President in 1904, and hosts up to 15% of the world's nesting brown 
pelicans and up to 30% of the world's nesting sandwich terns. The 
refuge at one time had the largest tern colony in the U.S., and more 
than 10,000 brown pelicans have recently been found in the island 
chain, along with reddish egret, American oystercatcher, and snowy 
plover. The islands are also an important location for wintering piping 
plovers and serve as a stopover site for songbirds in spring.
    Sadly, the acceleration of habitat loss has been dramatic over the 
past few decades, with Katrina dealing a near fatal blow. We must act 
quickly if we are to salvage this critical bird refuge.
    Levees and dikes on national wildlife refuges are important 
resource management tools, preventing saltwater intrusion and 
controlling water levels for wildlife and plants. They also support 
habitat for millions of migratory waterfowl. Hurricanes caused 
extensive damage to these water control structures, and, if left 
unrepaired, the impacts to habitat and migratory bird populations will 
be felt nationwide. Refuge levees and marshes absorb the brunt of storm 
surges before they reach communities. For example, at Bayou Sauvage NWR 
in Louisiana, levees on the refuge protect New Orleans from flooding. 
After the refuge levee was breached during Katrina, stabilizing the 
levee and utilizing the pumps that support it aided in the removal of 
water from New Orleans and prevented further damage to the city.
    Of great concern is that many of the hurricane-damaged refuges are 
contaminated with HAZMAT, including Bayou Sauvage in Louisiana, Big 
Branch Marsh, Delta and Sabine. Of these, Sabine NWR has suffered some 
of the most serious and disturbing consequences. Hurricane Rita passed 
directly over Sabine NWR, bringing with it tons of debris from the 
remnants of beach communities as well as oil and gas facilities. Among 
the debris are thousands of refrigerators and appliances, lumber, and 
at least two complete tractor-trailer trucks. As we sit here today, 
more than 1,400 barrels of toxic liquids and gases are sinking further 
into the low-lying marsh right in the heart of the refuge. A report 
prepared for the FWS found that 115,000-350,000 gallons of hazardous 
liquids and gases--full of everything from oil and bleach to propane 
and four missing containers of chlorine gas, which kill immediately 
upon exposure--are contained within those barrels. The barrels have 
contributed to a six-mile debris field that can be seen from space. 
According to the report, ``It is likely that, without the address of 
these issues, [Sabine] will be at significant risk of chemical and 
physical damages for decades.'' In spite of this, neither the 
Environmental Protection Agency nor FEMA have been granted authority to 
work on refuge lands; the Department of the Interior is paralyzed to 
act due to a lack of funding. While the hazardous debris clearly poses 
a serious risk to wildlife at the refuge, it is also putting 
groundwater for local people at risk as well as the local economy. In 
short, we're looking at a refuge that's been converted to a toxic dump.
    Our wildlife refuges are economic engines for many local 
communities. The Fish and Wildlife Service estimates that, in FY2004 
alone, nearly 37 million people visiting refuges generated $1.37 
billion of sales in regional economies, helping to create nearly 24,000 
jobs and about $454 million in employment income. At many refuges on 
the Gulf Coast, for every one dollar of budget expenditures, ten 
dollars of total economic effects are returned to the community. 
According to the FWS, visitation at affected refuges exceeded 4.5 
million during 2005, including over 250,000 at Sabine NWR. These 
visitation figures were already lower than previous years, due to 
impacts from the 2004 hurricane season, and visitation will be 
dramatically decreased until public use facilities can be repaired.
    As our only public lands system dedicated to wildlife conservation, 
the National Wildlife Refuge System is truly an American treasure. 
During the past 100 years, the Refuge System has been instrumental in 
restoring North America's wildlife populations, providing diverse 
opportunities to hunt, fish, birdwatch and photograph wildlife. 
Moreover, wildlife refuges serve as anchors for important natural 
systems that help support a clean and safe environment. In the affected 
regions, wildlife refuges protect vital wetlands and coastal marshes, 
often serving as key buffers protecting communities from storm surges. 
As our nation begins to repair the damage from these devastating 
storms, we must not neglect these critical resources.
    Finally, it has become common knowledge that the absence of marshes 
along the Gulf Coast, and the virtual elimination of marsh-buffers over 
the years, only exacerbated the damage of Katrina and Rita. There were 
enormous human consequences to this habitat neglect. It is not my role 
to revisit this issue again for the Committee, but simply to remind the 
members here that the national wildlife refuges play a major role in 
sustaining that barrier. Indeed, the Refuge System should be called 
upon to fulfill a natural resource responsibility and a human need in 
recovering and re-building that vital marsh-buffer.
    With total damages exceeding $270 million, the Refuge System simply 
cannot absorb the cost of clean up and recovery from hurricanes Katrina 
and Rita. Emergency supplemental funding from Congress to sufficiently 
address the massive facility and natural resource damages is essential 
to the continued viability of the entire National Wildlife Refuge 
System, as well as the economic and environmental well being of the 
Gulf Coast region.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Mr. Hirsche.
    Mr. Daulton?

STATEMENT OF MICHAEL DAULTON, DIRECTOR OF CONSERVATION POLICY, 
                    NATIONAL AUDUBON SOCIETY

    Mr. Daulton. Thank you, Mr. Chairman.
    My name is Mike Daulton. I am Director of Conservation 
Policy for the National Audubon Society. Thank you for the 
opportunity to testify regarding the impacts of Hurricanes 
Katrina and Rita on the national wildlife refuge system.
    At this time I would like to ask that my full testimony be 
entered for the record.
    Mr. Gilchrest. Without objection.
    Mr. Daulton. National Audubon Society has a long history in 
the Gulf Coast region with three state offices and 81 local 
chapters in Louisiana, Mississippi, Alabama, Texas and Florida. 
My testimony today will focus on three main areas: The urgent 
need for funding to address the damage to affected Gulf Coast 
refuges, the impacts of the hurricanes on bird and wildlife 
habitat and the impact specifically on birds, including species 
of conservation concern.
    In the three hurricane seasons from 2003 through 2005, the 
national wildlife refuges of the Gulf Coast region have 
experienced substantial damage from some of the most severe 
hurricanes ever to strike the United States. The U.S. Fish and 
Wildlife Service estimates a total funding need to address 
these damages of $270 million.
    Audubon supports the President's budget request of $132 
million to clean up debris and hazardous materials, rebuild 
roads and facilities and repair the water control 
infrastructure necessary to protect and manage refuge 
resources.
    However, the Fish and Wildlife Service also has identified 
a $100 million funding need to stabilize, assess, monitor and 
restore damaged habitat on the affected refuges. This request 
was not included in the President's proposal, but I strongly 
urge this committee and the Congress to support this critical 
funding.
    The hurricane impacts to birds and their habitats on Gulf 
Coast wildlife refuges are extensive with a number of high 
priority species and habitats affected. The Fish and Wildlife 
Service has estimated that the wildlife refuges of the 
southeast region experienced land losses, accelerated 
degradation or other damage on 150,000 acres of coastal and 
bottomland wetlands.
    Wind and storm surge impacts to bird habitats were 
pervasive across the Louisiana coast. Trees were completely 
stripped of their leaves. Fruit and insects were at low levels 
or were gone. Low-lying shrubs and woody cheniers were sprayed 
with salt and buried in sand and silt. Saltwater intrusion into 
freshwater marshes and other bird habitats was widespread.
    Among the most striking examples of habitat damage is to 
the Sabine National Wildlife Refuge in Louisiana. This refuge 
is threatened by a six mile debris field that includes more 
than 1,400 barrels of toxic liquids blown in by the hurricane.
    Of particular concern to Audubon and its members is the 
potentially devastating impact of the recent hurricanes on 
birds. Scientists working at the U.S. Geological Survey at the 
National Wetlands Research Center in Lafayette, Louisiana, have 
completed radar studies that show massive shifts in bird 
migration patterns immediately following Hurricane Katrina. 
Neotropical birds moved away from the Louisiana coast to 
uplands in Mississippi. Waterfowl moved from coastal habitats 
impacted by the saltwater storm surge into freshwater habitats 
further north.
    Preliminary evidence from Audubon's Christmas bird counts 
in the Gulf Coast also point toward significant impacts. 
Audubon completed its 106th Christmas bird count on January 5. 
Each year this event engages 50,000 citizens in an all-day 
census of early winter bird populations.
    An organizer in Grand Isle, Louisiana, reported that, and I 
quote, ``Many resident species and some wintering species 
appear to be affected. At Grand Isle during Hurricane Katrina 
the water poured over the back part of the island and swept 
toward the beachfront. Much of the understory has been replaced 
by debris. Trees like mulberries and sugarberries have been 
knocked back.''
    The report from Dauphin Island, Alabama, said it was the 
lowest count in birds and species in the past 10 years. Similar 
accounts came in from across the Gulf Coast.
    Birds of conservation concern may also have been affected. 
Big Branch Marsh National Wildlife Refuge lost 70 percent of 
the trees that were documented habitat for the endangered red-
cockaded woodpecker. Mississippi's Sand Hill Crane Refuge lost 
two of their most important breeding female cranes. These two 
females alone had been responsible for 40 percent of all 
fledged young since 1997.
    Braten Refuge, which is a nesting area for 15 percent of 
the world's endangered brown pelicans, was devastated by 
Hurricane Katrina and is now largely under water.
    In conclusion, the hurricanes of the past three years have 
drastically altered Gulf Coast wildlife refuges. Some have been 
devastated and will take years to recover. Audubon supports the 
President's supplemental request, but strongly urges this 
committee and the Congress to provide additional funding to 
stabilize, monitor and restore the coastal wetlands and barrier 
islands within the national wildlife refuges of the Gulf Coast.
    Mr. Chairman, this concluded my prepared statement. I would 
be happy to answer any questions you may have.
    [The prepared statement of Mr. Daulton follows:]

      Statement of Mike Daulton, Director of Conservation Policy, 
                        National Audubon Society

    Mr. Chairman and Members of the Subcommittee:
    I am Mike Daulton, Director of Conservation Policy for the National 
Audubon Society. Thank you for the opportunity to testify regarding the 
impacts of Hurricanes Katrina and Rita on the National Wildlife Refuge 
System. I commend you for holding this important hearing today.
    National Audubon Society's 27 state offices and more than 500 local 
chapters throughout the United States serve more than one million 
members and supporters. Audubon's mission is to conserve and restore 
natural ecosystems, focusing on birds, other wildlife, and their 
habitats for the benefit of humanity and the earth's biological 
diversity. Our national network of community-based nature centers and 
chapters, scientific and educational programs, and advocacy on behalf 
of areas sustaining important bird populations, engage millions of 
people of all ages and backgrounds in positive conservation 
experiences.
    Audubon has a long history in the Gulf Coast region and has three 
state offices and 81 local chapters in Louisiana, Mississippi, Alabama, 
Texas and Florida. Audubon also has a long history of deep connection 
and commitment to the National Wildlife Refuge System. Early Audubon 
Societies provided the first wardens to guard our wildlife refuges, a 
commitment to protection that continues today. As one of the founding 
members of the Cooperative Alliance for Refuge Enhancement (CARE), 
Audubon has worked to ensure the great potential of the Refuge System 
is fulfilled through increased appropriations for operations and 
maintenance needs.
    My comments today will focus on three mains areas: habitat and 
ecosystem impacts, facility and structural damage at the refuges, and 
funding and management needs. In the three hurricane seasons from 2003 
through 2005, the National Wildlife Refuges in the Gulf Coast region 
have experienced a wide range of damages from some of the most severe 
hurricanes ever to strike the United States. The U.S. Fish and Wildlife 
Service estimates a total funding need to address these damages of $270 
million. Emergency supplemental funding granted by the Congress on 
December 30, 2005 provided $30 million to address some of the most 
critical needs facing these refuges in the immediate aftermath of the 
hurricanes.
    The President's budget for Fiscal Year 2007 requests $132 million 
to address the needs on 61 wildlife refuges in the Gulf Coast region to 
clean up debris, rebuild and repair roads and facilities, and repair 
the water control infrastructure necessary to protect and manage refuge 
resources. The state-by-state summary of the funding is: Louisiana $103 
million, Mississippi $17.5 million, Florida $17.1 million, Texas $12.3 
million, Alabama $2.6 million, and Georgia $1.25 million. This funding 
request is phase one of a multi-year effort to monitor, repair, 
rehabilitate, and restore the refuges, levees, dikes, marshes, dunes, 
barrier islands, seagrasses, and forests in the Gulf Coast. Audubon 
strongly supports the President's request.
    The Service also has identified a $96.7 million funding need for 
immediate stabilization and restoration of damaged habitat and long-
term monitoring of the effects of the hurricanes on wildlife resources. 
The $96.7 million for habitat stabilization and monitoring was not 
included in the President's proposal but I strongly urge this committee 
and the Congress to provide this critical funding. The Service would 
use this money for coastal habitat assessment and restoration, aquatic 
and upland ecosystem impacts, invasive species, and imperiled species. 
It will be important moving forward for wildlife habitat needs, as 
determined by sound science, to be considered as part of recovery 
planning for Gulf Coast wetlands and barrier systems.

The Importance of Restoring Wetlands and Barrier Systems on Wildlife 
        Refuges to Protect Coastal Areas and Provide Protection for 
        Trust Species
    The national wildlife refuges in the Gulf Coast region were 
established as critical stopovers for migratory birds and to support 
endangered species and millions of waterfowl. It has long been 
understood that wetlands provide multiple benefits such as protecting 
biodiversity, storing water, controlling and mitigating floods, 
purifying water, and serving as nurseries for populations of fish and 
shellfish that support the seafood industry. The recent hurricanes, 
however, brought into stark relief one of the most critically important 
services that wetlands and barrier islands provide to the Gulf Coast: 
protecting communities from storm surges and other devastating impacts 
from hurricanes.
    The Fish and Wildlife Service has estimated that the wildlife 
refuges of the Southeast Region experienced direct land losses, 
accelerated degradation, or other damage on more than 150,000 acres of 
coastal and bottomland wetlands. Without the stabilization and 
restoration of these areas, coastal wetland loss will continue, 
biodiversity will decline, ecosystem health will suffer, and future 
storms will be more and more damaging to coastal communities and 
ecosystems. Although these refuges are highly valuable for protecting 
trust species of birds and wildlife, they also can play an integral 
role in the larger restoration efforts ongoing to rebuild and restore 
the coastal wetlands and barrier systems of the Gulf Coast to better 
protect coastal communities.
    According to the Fish and Wildlife Service, 61 wildlife refuges 
were directly impacted by Hurricanes Katrina, Rita, Wilma, and Dennis, 
resulting in habitat destruction and damage to facilities essential for 
refuge management and recreational programs. More than 4.5 million 
people visited the 61 affected refuges in 2005. These refuges are 
immensely popular with birdwatchers who visit the Gulf Coast to see a 
wide array of bird species including a variety of neotropical migratory 
birds. More than 45 million birders spend $32 billion each year 
pursuing their interest in bird and wildlife watching. Overall, these 
purchases have a ripple effect in the economy that leads to a total of 
$85 billion in economic benefit and generates more than 800,000 jobs, 
according to the Fish and Wildlife Service.

Concerns Regarding Impacts to Birds and Bird Habitat
    The hurricane impacts to birds and their habitats on Gulf Coast 
wildlife refuges are extensive, with a number of high priority species 
and habitats affected. Historically, the Gulf coast areas damaged by 
the hurricanes have been extremely rich in supporting migratory birds 
and these areas enjoy some of the highest bird-related recreation. 
Coastal Louisiana, for example, provides critical habitat for birds 
migrating across the Gulf of Mexico twice a year and is a prime 
destination for birding and ecotourism. Coastal Louisiana is the home 
to 60 percent of all mottled ducks and 66 percent of the entire 
Mississippi flyway waterfowl population.
    Preliminary data from scientific studies performed by federal 
agencies, as well as direct observations and anecdotal evidence from 
sources such as Audubon's annual Christmas Bird Count, provide an 
alarming picture of widespread habitat changes and large shifts in bird 
migrations. It is not possible to assess accurately at this time 
whether these changes will result in equally alarming reductions in 
bird populations, but this early data suggests that the Congress should 
consider very carefully the need to provide additional funding to 
restore habitat and provide adequate resources to properly understand 
the scope of these impacts and how they might be lessened or mitigated.
    In preparation for my testimony, I spoke with scientists working 
with the U.S. Geological Survey at the National Wetlands Research 
Center in Lafayette, Louisiana. Their research is not yet published but 
they expect to release it within the next few weeks. These scientists 
have been monitoring the habitat use of migratory birds in Louisiana 
and have recorded field observations of significant habitat destruction 
and large scale shifts in bird migration patterns.
    Based on field observations of the USGS scientists, wind and storm 
surge impacts to bird habitat was pervasive across the Louisiana coast. 
Trees were completely stripped of their leaves. Fruit and insects, 
which would have served as food for migratory birds, were at low levels 
or were gone. In other areas, the low lying shrubs and woody cheniers 
that would have provided stopover locations for neotropical migratory 
birds had been buried under six feet of sand and silt. Saltwater 
intrusion into freshwater marshes and other valuable bird habitats was 
widespread.
    Based on data from radar studies, bird migration patterns appear to 
have shifted in response to the changes in habitat. In eastern 
Louisiana, for example, the riverine systems along the shore of Lake 
Pontchartrain historically used by neotropical migrants widely during 
this time of year were used very little in the months following 
Hurricane Katrina. Their habitat use appears to have shifted to upland 
areas in Mississippi where food might have been more available.
    Similarly, based on the radar studies by USGS, in western 
Louisiana, waterfowl populations appear to have shifted after the 
hurricanes toward the north into more freshwater areas, away from the 
coastal areas affected by the saltwater storm surge.
    It is difficult to assess at this time how bird populations would 
be affected. But the scope of the changes in habitat and the 
significance of the shift in migratory patterns suggests the need for 
Congress to provide the resources necessary to allow federal agencies 
with responsibility for these trust resources to do the studies and 
monitoring necessary to make appropriate management decisions and 
maximize the use of funds dedicated to restoration of coastal habitats.
    I received a number of anecdotal accounts of declines in bird 
populations based on a preliminary analysis of data from Audubon's 
annual Christmas Bird Counts along the Gulf Coast. A sampling of these 
accounts follows:
    <bullet>  From an organizer of the Sabine Refuge Christmas Bird 
Count: ``It is hard to draw too many conclusions...but I have no doubt 
that most everything will be near historic lows...Most of these numbers 
would have been considered low just for a single party on a bad weather 
day.''
    <bullet>  From the Venice, Louisiana Christmas Bird Count: ``Very 
few wintering sparrows, few raptors...essentially all undergrowth was 
dead, offering little or no cover. No wax myrtle, no berry vines.''
    <bullet>  From the Dauphin Island, Alabama Christmas Bird Count: 
``This was the lowest count in birds and species in the last 10 
years...vegetation was seriously damaged, our western area was 
overwashed.''
    <bullet>  From the Grand Isle, Louisiana Christmas Bird Count: 
``Many resident species and some wintering species appear to be 
affected. At Grand Isle during Hurricane Katrina, the water poured over 
the back part of the island and swept toward the beachfront. Much of 
the understory has been replaced by debris. Trees like mulberries and 
sugarberries have been knocked back.''
    <bullet>  From the New Orleans Christmas Bird Count: ``Obviously, 
bird populations were affected. The most obvious effect seems to have 
been on resident forest birds and some water birds. For most resident 
birds, the news was bad--most came in less than half the previous six 
year average number.''
    I also received a report from Audubon's Center for Birds of Prey in 
Florida. The center observed a striking decrease in the number of 
eastern screech owls admitted to the center in the spring of 2005. 
Typically, the month of May is when the center will observe an increase 
in admissions of baby screech owls, most of them fallen from their 
nests. In 2004, the center admitted 42 screech owl babies. In 2005, the 
number dropped to 15. Screech owls are cavity nesters dependent on 
snags and oaks for nest cavities. This may indicate that a loss of 
trees in Central Florida due to the hurricanes contributed to a decline 
in this species.
    Over the years, Audubon has monitored many of the birds affected by 
the hurricanes and is particularly concerned that a number of imperiled 
bird species may have been impacted. Species considered by Audubon 
scientists to be of conservation concern that may have been affected by 
hurricane impacts include freshwater wet grass species such as the 
Black Rail, Long-billed Curlew, Yellow Rail, and Whimbrel; beach 
species such as Snowy Plover, Piping Plover, Wilson's Plover, Reddish 
Egret, American Oystercatcher, Red Knot, and Short-billed Dowitcher; 
and emergent salt march species such as Nelson's Sharp-tailed Sparrow 
and Seaside Sparrow. Each of these birds is included on Audubon's 

WatchList of birds of conservation concern.
    Audubon recommends extensive monitoring of neotropical migratory 
birds and priority bird species of conservation concern, as well as 
complete assessments of natural resource damage. Without annual surveys 
and habitat assessments over the next five years, the Service will be 
unable to separate effects of Hurricane Katrina from other causes of 
habitat change and bird population fluctuations.

Concerns Regarding Impacts to Threatened and Endangered Species
    Audubon is concerned about the impacts the hurricanes have had on 
species listed as threatened or endangered under the federal Endangered 
Species Act. In Southeast Louisiana, for example, the Big Branch Marsh 
National Wildlife Refuge has lost 70 percent of the trees that were 
documented nesting sites for the endangered Red-cockaded Woodpecker.--
--
    The refuge staff at Big Branch March NWR has been actively going 
out and putting new cavities in trees to replace the nesting sites. The 
Service is conducting ``spring roost counts'' for the birds right now 
and is optimistic that many of the 15 to 17 Red-cockaded Woodpecker 
families that nest on the refuge each year will nest again this 
April.----
    However, there is one area of Big Branch Marsh NWR where no trees 
are left standing at all, and the ground is making it difficult for 
refuge staff to access. There is a layer of ``sticky pudding'' from 
deposited debris and muck that their four-wheelers cannot get 
through.--Five of the Red-cockaded Woodpecker families historically 
used this area that is difficult to access with no standing trees. It 
is unclear how the birds that used the habitat in this area that was 
completely destroyed will adapt to the changed environment.
    The Breton National Wildlife Refuge is important for nesting birds 
and in particular it is a globally important nesting area for 15 
percent of the world's endangered Brown Pelicans. Breton is part of 
Chandeleur Islands and lost 50 to 70 percent of its land due to the 
hurricanes. The amount of land that is above the water line that could 
serve as nesting habitat has been greatly reduced. The refuge is not 
getting the natural replenishment of sediment from the Mississippi 
River the way it did historically.--The refuge staff is considering 
projects to do dredging to build up the islands and do plantings to 
bring back native vegetation.--The Breton Refuge's chain of barrier 
islands provides a significant wave buffer for the City of New Orleans 
as well as wetland coastal areas. Restoration on the refuge will help 
protect the communities of Louisiana, protect the area's vital 
wetlands, and also provide habitat for endangered species.
    Audubon recommends that monitoring and surveys be conducted for the 
Brown Pelican. Late last year, the Service announced plans to issue a 
rule to delist the Gulf coast population of the brown pelican. Many 
coastal habitats have been destroyed and assessment of the nesting and 
roosting areas in needed before the Service can move forward with 
delisting.
    Mississippi Sandhill Crane NWR was created to protect the 
endangered Mississippi Sandhill Crane, of which 135 exist in the wild. 
The recent hurricanes caused the deaths of two very important breeding 
females, which have been responsible for 40 percent of all fledged 
young since 1997. Biologists at the refuge are optimistic that other 
females will be able to replace this reproductive success, but 
extensive monitoring of this vulnerable population will be needed. 
Structures used to observe the species in the field must be rebuilt, 
and the refuge will need biologists to conduct monitoring. Currently 
the refuge has one full time biologist and one full time assistant to 
conduct the field work, and additional staffing may be necessary.

The Need to Repair Damage to Water Control Infrastructure to Ensure 
        Ecological Health and Biological Integrity
    The 2005 storms breached levees and dikes important to wildlife and 
habitat management and flood control on national wildlife refuges. 
These levees and dikes protect freshwater marshes from damaging 
saltwater intrusion and allow the Fish and Wildlife Service to manage 
the wetlands for optimal conditions for millions of migratory birds. 
For example, some water control structures used in Gulf Coast refuges 
allow refuge managers to maintain a historic continuum of different 
marsh types--freshwater, intermediate, and saline--to which different 
species are adapted. Without active management of water levels to 
maintain this diversity of habitats, the species that use the refuge 
will be less biologically diverse. With pieces of the ecological puzzle 
missing, the wetlands may provide fewer ecosystem services to 
surrounding communities.
    The Refuge System is managed under authority of the Refuge 
Improvement Act of 1997, which directs the Fish and Wildlife Service to 
manage the System to ensure the environmental health and ecological 
integrity of the refuges. The Service's ability to manage the refuges 
in a manner consistent with its legislative mandate will be severely 
limited without additional funding to repair water control 
infrastructure.

The Need for Immediate Assistance to Ensure Proper Cleanup of Hazardous 
        Debris
    In addition to habitat impacts to a variety of Gulf Coast refuges 
that require major restoration efforts to protect trust species, many 
refuges are in need of an immense amount of debris cleanup. All four of 
the southwestern Louisiana refuges were devastated by hurricane Rita. 
According to a recent report, the Sabine National Wildlife Refuge is 
threatened by more than 1,400 barrels of toxic liquids blown in by the 
hurricane. These barrels hold 115,000 to 350,000 gallons of oil, 
bleach, and propane, and several containers of lethal chlorine gas were 
found on the refuge as well. The barrels are part of a six-mile debris 
field which includes two 18-wheelers, plywood, aluminum siding, and 
refrigerators. Much of the debris came from the oil and gas facilities 
that surround the refuge.
    The marsh presents difficulties both in terms of access to the 
refuge to retrieve hazardous materials and other debris, as well as 
presenting a risk that hazardous materials will sink down into the 
marsh, out of sight. Fish and Wildlife Service hired consultants to 
review the risks at Sabine National Wildlife Refuge who recommended 
that thermal surveys be conducted to identify any sunken materials that 
may present a risk to the environment.
    The costs of managing the damage to Sabine Refuge are not yet 
completely understood. The cost of managing the damage to Bon Secour 
Refuge from Hurricane Ivan may help to put the potential costs in 
perspective. Hurricane Ivan hit Bon Secour Refuge with a 16 foot storm 
surge carried large amounts of debris from destroyed houses in nearby 
development. The refuge spent $3.5 million and eight months using the 
cooperation of three federal and state agencies to remove hazardous and 
non-hazardous debris from 200 acres of the refuge. The hazmat cleanup 
took three weeks, but most of the hazardous debris was from household 
products. Sabine Refuge presents a hazardous materials problem that is 
orders of magnitude larger, with acutely toxic materials brought in 
from oil and gas facilities, and a debris field strewn across 32,000 
acres.
    The recent report entitled ``Assessment of Hazardous Materials and 
Debris from Hurricane Rita in the Sabine National Wildlife Refuge'' 
provides important data on the extent of the problem but additional 
surveys are needed to identify submerged items. The Service has 
estimated that it will cost between $10 million and $50 million to 
clean-up and remove the hazardous debris at five national wildlife 
refuges during to the hurricanes.
    It appears that additional funding, beyond the Bush Administration 
request in the emergency supplemental bill, will be needed to cleanup 
debris and toxic waste at many of the refuges. Contaminant assessments 
are necessary to enable us to identify and prioritize corrective 
actions.

Conclusion
    Facing a backlog of operations and maintenance needs now well over 
$2 billion, the National Wildlife Refuge System does not have the 
funding available to divert to the acute threats and emergency needs 
created by Hurricanes Katrina and Rita. National Audubon Society 
supports the President's emergency supplemental request to restore the 
wildlife refuges of the Gulf Coast that have been devastated by 
hurricanes. An additional $96.7 million for habitat stabilization and 
monitoring of the national wildlife refuges impacted by the hurricanes 
should be included in the emergency supplemental appropriations bill.
    The refuges in the Gulf Coast region have drastically changed and 
it is essential that baseline surveys of habitat damage and bird and 
wildlife populations are conducted as soon as possible. These surveys 
will be an important guide for managers as they begin to cleanup, 
repair, and restore the refuge system. In addition, it is critical that 
the Fish and Wildlife Service, as a large landowner in the Gulf Coast 
region, participate fully in the efforts of federal, state, and local 
agencies, as well as partner organizations, to rebuild and restore 
wetland habitat and the barrier islands that will be necessary to 
ensure protection of the vast biological resources of the area and to 
protect coastal communities from future storm events.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to answer any questions you may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Daulton.
    Mr. Richard?

 STATEMENT OF DAVID RICHARD, EXECUTIVE VICE PRESIDENT, STREAM 
           PROPERTY MANAGEMENT, INC., STREAM COMPANY

    Mr. Richard. Thank you, Mr. Chairman.
    I am David Richard. I am a wildlife biologist who has 
worked on the coast of Louisiana and southwest Louisiana in 
particular for the past 30 years. I spent 16 years working for 
the State of Louisiana and the last 14 years working with 
private land management.
    I am a resident of Grand Chenier or was a resident until 
Hurricane Rita when that community and our home was devastated.
    Mr. Gilchrest. What was the name?
    Mr. Richard. Grand Chenier. It means oak ridge in French, 
the Chenier word.
    It is a unique geological area between Vermilion Bay and 
Galveston Bay. There are only three of them in the world, and 
that is on the northern shore of Australia and the eastern 
shore of Madagascar. It is called the Chenier Plain. It is 
actually an isolated beach ridge, but it made an awfully 
wonderful home.
    You all have heard about land lost in Louisiana. It is 
catastrophic. To put it in perspective, there is a million 
acres that is gone. The three main topics that I think we need 
to look at today are some of immediate concern. You have heard 
of the huge land loss in Louisiana and how that land loss has 
impacted. I feel it is a direct result, the devastation that we 
saw in Mississippi and in New Orleans, because of the loss of 
that million acres of coastal wetlands.
    The diversity in coastal wetlands in Louisiana is 
unparalleled in this country. Marshes are not monotypic. There 
are fresh marshes and intermediate marshes and brackish marshes 
and saline marshes, and the diversity of Louisiana coastal 
wetlands is a unique feature.
    So what do we need to do? You asked Mr. Hamilton this 
morning about particular monies that were available through PL-
646 of the Breaux Act. There are $257 million that are needed 
to fund designed and engineered projects that are ready to be 
constructed at this point in time. $200 million of that remains 
unfunded as we sit here today.
    The Louisiana coastal area plan in the year 2000, after the 
formulation of the 2050 plan, called for a $15 billion 
investment. A $15 billion investment would be cheap in 
comparison to where we are today.
    It gives you a total at this point in time that there are 
$200 million worth of projects ready to construct. There is 
another $500 million of projects that are in design and 
engineering, and for the complete implementation of the 
Louisiana coastal area plan we are in the range at this point 
in time of about $18 billion.
    From a national wildlife perspective, which is what I was 
asked to speak on, the national wildlife refuge system works 
very closely with the private landowners, with the parishes and 
with the local governments in regard to the overall plan and 
regional planning system.
    Sabine National Wildlife Refuge, Cameron Prairie National 
Wildlife Refuge and Lacassine National Wildlife Refuge are 
located in Cameron Parish encompassing about 180,000 acres. 
They work very closely with us in a program for watershed 
management. We have state-of-the-art structures on Sabine built 
with PL-646 money and PL-566 money on the watershed program 
under the Cameron-Creole Watershed that not only impact refuge 
lands, but impact the lands that are adjacent to that, the many 
thousands of acres of private lands. We urge and encourage that 
those water control structures and levees be repaired and 
rebuilt as soon as possible.
    The socio-economic proportion of these hurricanes. We have 
hundreds of thousands of visitors that went down the Creole 
Nature Trail, which is an American byway, that learned 
education and hands-on experience that was completely destroyed 
at Sabine National Wildlife Refuge and heavily damaged at 
Cameron Prairie. This gave the public a real opportunity to 
walk through the wetlands in Louisiana and to also see specific 
exhibits in that regard.
    Lacassine National Wildlife Refuge is one of the most 
important wintering waterfowl areas in the country. Half a 
million birds winter there. We have a levee breach there that 
needs to be immediately done, and we also have public 
facilities there that were damaged. Cameron Prairie also.
    I do urge that we do the hydrologic issues that need to be 
restored and the public facilities and public use facilities 
and administrative buildings that should be restored on those 
refuges.
    You have heard a lot about the hazardous waste. I worked 
with live cattle rescue and spotting the 360 graves that were 
talked about a while ago that were lost, and I would like to 
commend Fish and Wildlife Service for their help, but would 
also like to commend General Honore. When I needed helicopters, 
I called General Honore, and he provided whatever we needed to 
be able to do what we needed to do.
    I have witnessed the debris fields on Sabine, just as I 
have witnessed thousands of acres of debris fields on private 
lands. The EPA began their cleanup from Hurricane Rita on lands 
that I manage. They have done an excellent job of picking up 
the hazardous waste off of those areas. We had hundreds of 
containers, thousands of containers that have been picked up. 
Those methods have been seen and have been shown and proven 
that we can do it.
    The estimate of money that is involved in doing that is 
approximately $20 to $30 million. My written testimony, I would 
ask that that be submitted. A lot of those figures are in that 
written testimony.
    Mr. Chairman, I appreciate being asked to come here and 
appreciate whatever you can do for the needs of coastal 
Louisiana on private lands and on Fish and Wildlife Service 
lands.
    Thank you for being here. I would love any questions that 
you might have.
    [The prepared statement of Mr. Richard follows:]

       Statement of David M. Richard, Executive Vice-President, 
                       Stream Property Management

    I was asked to testify before you with an assessment of the 
destruction and the type of damage that was inflicted upon National 
Wildlife Refuges by Hurricanes Katrina and Rita. I have spent 30 years 
of my professional career in coastal Louisiana working as a State 
Wildlife biologist and private land manager with emphasis in 
Southwestern Louisiana. I was a resident of Grand Chenier, located in 
lower Cameron Parish that was devastated by Hurricane Rita. My emphasis 
today will be on the impacts of Hurricane Rita on Sabine National 
Wildlife Refuge, Lacassine National Wildlife Refuge and Cameron Prairie 
National Wildlife Refuge. These refuges comprise approximately 180,000 
acres in Cameron Parish located in extreme Southwestern Louisiana. 
These refuges are intricately involved with the water management and 
resources management of Southwestern Louisiana. Southwestern Louisiana 
is home to some of the most diverse wetlands in the United States. This 
area comprises the Chenier Plain zone of Louisiana which extends from 
Vermilion Bay in Southwest Louisiana to Galveston Bay in Southeast 
Texas. Because of the geology and the topography of the area with 
extensive marshes and cheniers, the wildlife and wetlands diversity is 
unparalleled. The wintering waterfowl, the stopover habitat for 
neotropical passerine birds and the wetland diversity is home to 
multitudes of species of wildlife.
    The destruction that was wrought upon Southwest Louisiana by 
Hurricane Rita is unparalleled in our history. The hurricane struck 
this area with winds in excess of 120 miles per hour, with tidal storm 
surge up to 20 feet. In this low, flat wetland the damage that was 
inflicted was beyond comprehension to the coastal communities involved 
of Cameron, Grand Chenier, Creole, Holly Beach, Pecan Island and 
Vermilion Parish and the entire coast of Louisiana that was affected by 
excessive storm surge.
    The damage inflicted upon National Wildlife Refuges in the area was 
serious and catastrophic to the infrastructure. This infrastructure 
includes levees, water control structures, headquarters facilities, 
visitor centers and public use trails and supporting facilities.
    Sabine National Wildlife Refuge was particularly hard hit due to 
the storm surge. Major water control structures and levees that are 
used to combat salt water intrusion were severely damaged. Subsequent 
vegetative destruction and marsh deterioration are of immense 
proportion. These structures and levees are needed to maintain the 
historical wetland diversity of the area and thus its productivity. The 
diversity of the land and productivity are linked through habitat 
diversity. The needs of the Refuge include the rebuilding of these 
levees and the water control structures in the Cameron-Creole Watershed 
on the east side of Calcasieu Lake and the water control structures on 
the west side of Calcasieu Lake. These structures and levees have been 
built in coordination with the Coastal Wetlands Planning, Protection, 
Restoration Act program (PL646), the Natural Resource Conservation 
Service Watershed program (PL566). These structures which are state-of-
the-art water control structures impact not only National Wildlife 
Service lands but also private lands. The United States Fish and 
Wildlife Service have worked with the people of Southwestern Louisiana 
in constructing and maintaining these water control structures and 
levees to protect and maintain this historical diversity. The 
structures and levees are repairable and should be repaired at the 
earliest date possible. The infrastructure of Sabine National Wildlife 
Refuge which includes waterways, headquarters facilities, visitors( 
center, and support buildings were completely destroyed in Hurricane 
Rita. These facilities should be rebuilt to support the continuing 
management of over 100,000 acres of coastal wetlands as well as centers 
for outreach and education of the values of America(s Wetland.
    Other types of damage that were inflicted upon Sabine National 
Wildlife Refuge was the deposition of debris fields. Over 1,700 acres 
of debris has been located and identified on the Sabine National 
Wildlife Refuge. The Sabine National Wildlife Refuge management 
conducted an assessment of hazardous materials and debris from 
Hurricane Rita in the months following the hurricane. This assessment 
is attached to my written testimony for your perusal. In essence this 
plan identifies 1,400 potential hazardous material items in the debris 
field. These items are estimated to contain between 115,000 and 350,000 
gallons of hazardous liquids and gases. This hazardous waste came from 
offshore facilities, inshore facilities, and common household items. 
The hazardous waste on private lands in Southwestern Louisiana is 
progressing as planned and implemented by the Environmental Protection 
Agency. The Environmental Protection Agency has retrieved tens of 
thousands of containers from private lands in Southwest Louisiana and 
has done a commendable job. These containers and hazardous materials 
should be removed from Sabine National Wildlife Refuge to prevent 
present and future damage to that habitat. There are also no doubt some 
hazardous materials that have not been able to be identified due to the 
immensity of the project. These debris fields can be at depths and 
heights of 6-8 feet of vegetative, residential and hazardous materials. 
There is the distinct possibility that more than the estimated number 
of containers of hazardous waste is present on the Refuge. Every effort 
should be made to commence their removal from Sabine National Wildlife 
Refuge as is being done on private lands. There have been a number of 
procedures that have been used to cause the least damage to the wetland 
habitat that have been used in the hazardous material removal by the 
Environmental Protection Agency that is on-going at this time.
    The Lacassine Wildlife Refuge is also located in Southwestern 
Louisiana. The infrastructure of Lacassine Wildlife Refuge was also 
damaged by Hurricane Rita. Although Lacassine Wildlife Refuge is 
located 20 miles inland the storm surge and accompanying salt water 
intrusion damaged the levees that maintain diversity of this National 
Wildlife Refuge. The levees and water control structures damaged should 
be rebuilt and replaced as soon as possible. This Refuge maintains a 
pristine historical wetland in the Mermentau Basin in Southwest 
Louisiana as Sabine is used by thousands of people per year. The 
incidence of debris fields and hazardous waste on Lacassine Wildlife 
Refuge is not the scope that it is on Sabine National Wildlife Refuge 
but the infrastructure damage and removal of hazardous waste on 
Lacassine National Wildlife Refuge should be implemented as soon as 
possible.
    Cameron Prairie National Wildlife Refuge is located on the eastern 
side of Calcasieu Lake and also sustained heavy damage through 
Hurricane Rita. The debris fields and infrastructure damage on Cameron 
Prairie are similar to Sabine National Wildlife Refuge. The 
headquarters facilities and visitors( center were used as a temporary 
headquarters for the recovery of Cameron Parish. As a resident and 
citizen of Southwest Louisiana we commend the Fish and Wildlife Service 
for their willingness to house and coordinate the recovery activities 
through that office in the early period following Hurricane Rita. This 
area was used as a command center, as a staging area for troops and 
private personnel that were involved in live cattle rescue, damage 
assessment, road clearing, and as a support facility for hundreds of 
Cameron Parish residents. The headquarters building and visitors( 
center sustained damage due not only to the hurricane but to the number 
of people and equipment that used the headquarters after the hurricane.
    The infrastructure on Cameron Prairie was also damaged in Hurricane 
Rita. There are waterways that need to be cleared of debris. There are 
hazardous materials that have been deposited. This infrastructure 
should be replaced as soon as possible.
    One of the questions asked in your letter of invitation was if 
these Refuges were permanently changed. The incidence of hurricanes is 
a natural phenomenon along the Southeastern United States. These 
hurricanes have historically changed the landscape over centuries. The 
problem is that man has also changed the topography and hydrology of 
the lands. When the Mississippi River was harnessed the natural flow of 
the Mississippi with its nutrients and immense amount of wetland 
creation capabilities were diverted and have forever changed the 
landscape. We must now rely on man-made techniques to preserve the 
diversity and wetlands of Coastal Louisiana. The Refuges will recover 
if the existing infrastructure that was in place prior to the hurricane 
is replaced. This infrastructure, comprised of levees and water control 
structures maintain the historical diversity. There is going to be a 
succession period where the plants and animals must recover. This time 
frame is, hopefully, short. There are some areas that have been 
permanently changed in regard to the removal of vegetation from the 
marsh that created open water. These areas will take much longer to 
heal and will take management of those wetlands to achieve that goal.
    How much money Congress needs to appropriate for the repair for 
these severely damaged Refuges in Southwestern Louisiana could range 
from $20-50 million. The repair of the infrastructure alone is 
estimated to cost between $10-20 million. The estimates regarding the 
removal of hazardous material from the Refuges could range from $20-30 
million. These heavily damaged Refuges in Southwest Louisiana are in 
need of rebuilding and re-establishing in infrastructure. The 
socioeconomic impacts of Cameron Prairie National Wildlife Refuge, 
Sabine National Wildlife Refuge and Lacassine National Wildlife Refuge 
are important for the education and economy of Southwest Louisiana. 
These Refuges have in excess of one-half million visitors per year that 
learn and enjoy the ecology and natural resources of this productive 
area. I urge this Committee to appropriate those funds necessary to 
rebuild the levees, water control structures, headquarters buildings, 
visitor centers and support facilities that have made Southwestern 
Louisiana and National Wildlife Refuges so productive and so unique and 
so important to the people of Southwestern Louisiana.
                                 ______
                                 
    Mr. Gilchrest. Yes, sir. Thank you, Mr. Richard.
    We are going down to Louisiana next week mainly to look at 
the fisheries issues, the fishermen, the boats, the processors, 
the infrastructure, those kinds of things, but I think this 
issue, as big as it is, it would be important for us to go down 
and visit some of the places that you have seen and personally 
walked and see what we can do to help in this arena.
    Mr. Richard, you talked about wetlands recovery, land loss 
mainly due because of the loss of wetlands, $15 billion of the 
original estimate for the recovery of lower Louisiana I guess 
over about a 40-year period or something like that, and you 
said it was bumped up to $18 billion I guess considering the 
hurricane.
    Do you think that without this massive introduction of 
funds to understand the hydrologic issues so that the wetlands 
can be restored and reduce to a minimum land loss, without that 
do you see any hope for lower Louisiana?
    Mr. Richard. As I have said in my testimony, we have lost a 
million acres. That land loss is accelerated. USGS, as was 
stated here earlier today, estimated we had lost 118 square 
miles just with this hurricane. We have a normal land loss of 
25 square miles per year at this time. If there are not major 
massive efforts to restore coastal Louisiana it will cease to 
exist. Absolutely no question.
    I began the bald eagle program in Louisiana in monitoring. 
I have done the alligator surveys in Louisiana since 1976. I 
used to band every brown pelican that we brought into the state 
to reestablish in my hands in the late 1970s.
    I have witnessed that land disappear. I have witnessed 
cypress forests die with bald eagle nests on the ground. I have 
witnessed the Chandeleur Islands being completely destroyed. I 
have witnessed vast wetlands where I used to look at productive 
marshes now in open water.
    The answer to your question is from firsthand experience, 
drastic measures are needed, and they are needed quickly. The 
$15 billion figure was compiled by the Corps off the 2050 plan. 
The 2050 plan was compiled in 1998 with a cost of $14.9 billion 
in 1998. In normal inflation we are looking at an $18 billion 
figure. It needs to be put at the top of a priority list to 
preserve the diversity of that ecosystem.
    Mr. Gilchrest. Now, the 2050 plan, I guess also 
incorporated into the 2050 plan was a technological fix for 
coastal or lower Louisiana based in part on some changes in the 
sediment flow from the Mississippi River I would guess?
    Mr. Richard. That is correct. You know, the Mississippi 
River has to be looked at from a nationwide perspective. Number 
one, we know that we have 50 percent of the silt that used to 
come down the Mississippi no longer comes here.
    Since the 1927 flood when we harnessed the Mississippi, and 
we have all the locks and dams up the Mississippi River, and we 
have all the dredging that is imposed because of those lock and 
dams and lack of flow. We do have a huge lack of sediment 
coming down the Mississippi. We need to make use of every 
available spoonful in regard to rebuilding that coast.
    That works very well in what we call the Delta Plain and 
the sub Delta Plain, which is from Vermilion Bay to the State 
of Mississippi, but in the southwestern part of the state we 
have hydrological controls there that need to be maintained 
because there is not that flow.
    We do have literal flow coming through the Gulf. Major 
operations on the Mississippi River are necessary to save 
coastal Louisiana.
    Mr. Gilchrest. Mr. Daulton, you said you were in support of 
the supplemental from President Bush, which amounted to some 
$130 million or so, but you also I think made a comment that 
the total needed, at least if I added up everything you said, 
and I am assuming you mean just on Federal wildlife refuges, 
was $370 million. Or was it $270 million?
    Mr. Daulton. I think the Fish and Wildlife Service has 
estimated $270 million as a total overarching need. $132 
million was in the President's request.
    Mr. Gilchrest. I see.
    Mr. Daulton. There was a $100 million need for habitat 
assessment, habitat monitoring.
    Mr. Gilchrest. Is that over and above the $270 million?
    Mr. Daulton. No.
    Mr. Gilchrest. That was included in the $270 million?
    Mr. Daulton. That question could be maybe better directed 
to Fish and Wildlife Service, but I think that my understanding 
of it is that the habitat request is within the $270 million.
    Mr. Gilchrest. So we are short about $100 million with the 
President's request?
    Mr. Daulton. Correct.
    Mr. Gilchrest. As we look at this, coastal Louisiana, the 
state refuges, the state land and in the Federal wildlife 
refuges, as you look at these areas of need are you making 
distinctions?
    In your efforts in Louisiana and your efforts to talk to us 
are you making distinctions between the Federal dollars that 
will go for Federal wildlife refuges or for the state-owned 
land? Is there a collaboration? This is the region from Texas 
to Mississippi that needs to be fixed.
    Mr. Moore. Mr. Chairman, if I may?
    Mr. Gilchrest. Yes.
    Mr. Moore. Parke Moore. We have made an estimate based upon 
our initial assessments of damage to our state-owned lands of 
approximately $258 million that is not included in any of those 
dollars that have been talked about today.
    Mr. Gilchrest. So it is $250 million just for the state-
owned land?
    Mr. Moore. Yes, sir.
    Mr. Gilchrest. Where are you looking to get that money 
from?
    Mr. Moore. You.
    Mr. Gilchrest. Mr. Jefferson?
    Mr. Moore. Maybe in Jeffersons.
    Mr. Gilchrest. OK. So the state is looking to the Federal 
government----
    Mr. Moore. Yes, sir.
    Mr. Gilchrest.--for some of those dollars?
    Mr. Moore. Yes, sir. We feel as though the Federal 
government is a major player in the recovery of Louisiana and 
the health of our ecosystems in Louisiana to the benefit of the 
Nation as a whole.
    Our estuarine system is critical to the seafood industry, 
to the whole United State and also internationally.
    Mr. Gilchrest. Yes. So just between what the Federal 
refuges appear to need and what the state land appears to need, 
which I am assuming we are talking about land lost to Hurricane 
Katrina that was marsh or swamp or wetlands and now is open 
water or potentially open water, so we are looking at that to 
be about $500 million I would guess.
    From the Federal side and the state side is a round, 
ballpark figure of about $500 million for that habitat 
restoration?
    Mr. Moore. Well, it is not only habitat restoration, but 
those projects that are involved in ensuring that we can 
maintain what we have.
    Mr. Gilchrest. Right. Sure. Not only habitat restoration, 
but make sure the habitat can withstand another hurricane.
    Mr. Moore. Yes, sir. To get back to where we were, not to 
improve really much of anything.
    Mr. Gilchrest. Right. Mr. Hirsche?
    Mr. Hirsche. If I could comment? Yes, Mr. Chairman. Fish 
and Wildlife has estimated $170 million for facilities and 
infrastructure repair needs and $88 million for habitat 
restoration to get us back to where we were, but I think there 
is a real question mark with those numbers. I think the 
likelihood is that they are going to increase.
    Mr. Gilchrest. I see. I have some other follow-up 
questions, but my time is up so I will yield to the gentleman 
from New Jersey, Mr. Pallone.
    Mr. Pallone. Thank you, Mr. Chairman.
    I wanted to ask Don Young about his statement. In your 
statement you mention that it might be more harmful to attempt 
to remove some debris or hazardous material than to leave the 
waste in place and let nature repair itself, and this would 
allow the Service to invest limited resources in restoration 
efforts.
    I just wondered by what criteria you would make such a 
judgment to leave waste or debris in place. How would you 
determine that?
    Mr. Young. Mr. Pallone, I believe that testimony was 
provided by Director Hall this morning. I didn't provide 
comments on that.
    Mr. Pallone. OK. So I am misquoting you then? It was not 
you who said that?
    Mr. Young. Not in my remarks today, no.
    Mr. Pallone. OK.
    Mr. Young. With regard to our written testimony, we spoke 
to some of the same concerns that Director Hall spoke of this 
morning that in some cases the materials, the toxic materials 
in situ, may be problematic in terms of removal of some of 
those materials in terms of releasing them by virtue of the 
actual process of removing them from their current location, so 
we will have to look on a case-by-case basis as to what is the 
most effective way of dealing with the particular toxic 
elements.
    Mr. Pallone. So there may be some cases where you would 
advocate that, but you don't really want to establish a 
criteria saying what those would be?
    Mr. Young. No. That is correct.
    Mr. Pallone. OK. Let me ask Mr. Hirsche. I don't know if I 
am pronouncing it right.
    Mr. Hirsche. It is Hirsche, Mr. Pallone.
    Mr. Pallone. OK. Like Hershey, Pennsylvania, I guess.
    Mr. Hirsche. That is right.
    Mr. Pallone. All right. In your statement you note that the 
estimated storm damage to refuge facilities and infrastructure 
exceeds $270 million or about 70 percent of the refuge system's 
total 2006 operations and maintenance budget.
    Then you say you fear that refuges across the country, 
already stretched to the breaking point, would not recover from 
the extensive budget burden already crippling the system.
    I just wanted you to share with us what the Cooperative 
Alliance for Refuge Enhancement currently estimates as the 
budget backlog for operations and maintenance activities within 
the refuge system.
    Mr. Hirsche. Yes, sir. The Cooperative Alliance for Refuge 
Enhancement is, as I think you know, a diverse alliance of 21 
national organizations that runs the gamut from the National 
Rifle Association to Defenders of Wildlife. We don't always 
agree on management strategies, but we certainly agree that the 
refuge system is massively underfunded.
    Our most recent, and this goes back a couple years, 
estimate on an annual budget for the refuge system that would 
help to alleviate the $2.7 billion backlog would be $700 
million a year, so you can see we are already operating behind 
the curve.
    I think our concern with the expenses associated with 
cleaning up the Gulf--I mean, you have two options; either do 
it or you don't, and what are the ramifications if you don't, 
and if you do address the facilities repairs and the habitat 
restoration where is that money going to come from?
    If we take it from the refuge system budget it is going to 
have a serious impact on refuges throughout the nation.
    Mr. Pallone. Are there ways in which the unintended 
operations and maintenance activities in the refuge system may 
have amplified the damage inflicted by the hurricanes in 2005?
    Mr. Hirsche. I am not sure I understand your question.
    Mr. Pallone. In other words, is it possible that because of 
the underfunding or problems with O&M activities in the refuge 
system that once the hurricane came through that there were 
consequences that may not have existed otherwise?
    Mr. Hirsche. I mean, I think that is entirely possible. I 
can't point to specifics, but the reality is that at refuges 
around the country, including the Gulf, you have facilities 
that were already in need of enormous repairs. In some cases 
they needed tearing down and actual replacement to reduce 
costs.
    There were serious habitat restoration needs. In many cases 
you have water control structures and other things that were 
not up to full operating standard, but I think we would have to 
look case-by-case, and I don't have specific examples with me.
    Mr. Pallone. OK. In your written statement you express 
concern in the contracted report of hazardous materials about 
contamination at the Sabine National Refuge, that unless the 
issue of contaminant removal and rehabilitation is addressed 
that that refuge will be at significant risk of chemical and 
physical damage for decades.
    I only mention that because that seems at odds with the 
idea, and again I don't want to misquote Mr. Young, that it 
might make more sense to leave some of the spoiled areas alone 
to heal themselves.
    Do you want to comment on this sort of leave-it-alone 
approach at all?
    Mr. Hirsche. My gut would say you let hazardous material 
sink into the marsh you are looking at a ticking time bomb.
    The reality is the habitats we are talking about have 
already taken a significant hammering, and it seems that at 
this point removing these items would be probably the best 
option, but it may be a case-by-case situation as well.
    Mr. Pallone. OK. Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Just a couple of extra questions. Mr. Hirsche, following up 
on Mr. Pallone's questions about leaving certain things alone, 
I think I would agree with you that if we can get those toxic 
materials out of there that would be one of our top priorities.
    The other thing though is looking at the national wildlife 
refuges and looking at certain buildings or infrastructure that 
have been destroyed, have you given any thought to just leaving 
those, to taking the debris of those buildings away and not 
rebuilding in those areas? Is there any consideration given to 
that?
    Mr. Hirsche. I can't speak for the Fish and Wildlife 
Service. My sense is that is under consideration. On the other 
hand, most of these facilities that we are talking about are 
vital to the operations. They store maintenance equipment. 
Often we are talking about visitor services structures.
    The reality is refuges provide an outstanding opportunity 
for the public to enjoy these places, and if they don't have 
the interpretive and educational opportunities to engage at 
these refuges we are going to lose community and public support 
for them.
    Mr. Gilchrest. Given the fact that we have to squeeze out 
blood from a stone here----
    Mr. Hirsche. Yes.
    Mr. Gilchrest. Not that we wouldn't want to rebuild some of 
those structures, but just to give your honest opinion if we 
had to prioritize this.
    We are not going to come up with $18 billion over the next 
two or three years. We hope to bump the $132 million up, but 
given the fact that there are toxic waste problems out there, 
that there are restoration to habitat problems out there, that 
there is holding onto wetlands problems where structures are 
going to have to be built, and we haven't talked to Mr. Hall 
about this.
    This is a fairly minor equation into the whole problem, but 
if we had to prioritize I guess that would be low on our 
priority list to rebuild some of the facilities on those 
refuges that need to be protected with wetlands first.
    Mr. Hirsche. Yes. Mr. Chairman, I guess I would in 
answering that question raise a question for the Committee, and 
that is we are talking about funding all these activities 
through emergency supplemental dollars, but the reality is that 
FEMA dollars are precluded right now by statute from being 
spent on Federal lands.
    As I understand it, at Sabine there are areas where EPA has 
been hard at work, and they have cleaned up all the ``white 
coats'' and other items right along the boundary and so there 
is a stark contrast between within and without the refuge. I 
guess I would urge the Committee to explore the notion of being 
able to allocate some of those FEMA dollars to addressing 
cleanup.
    As far as habitat restoration is concerned, this is an 
issue not only of vital importance to wildlife, but to 
communities, to people, to economies. It seems to me that the 
burden should be shared.
    Mr. Gilchrest. We did discuss that briefly this morning, 
and that will be an issue of concern with us whether we have to 
change the statute or how to get FEMA dollars because we have 
been pumping, and rightly so, a lot of money down to lower 
Louisiana. We just don't want it to sit in a field in Arkansas, 
but make sure it gets to the right spot.
    Just a quick question about the salt problem. Mr. Moore, 
you mentioned a number of the farm fields, not to mention a 
vast array of other areas that have been inundated with 
saltwater, brackish water. We saw the burned out fields and 
vegetation.
    What is the solution? Is it natural rain and washing this 
salt through the soil? Is that how you get rid of it? How long 
does that take?
    Mr. Moore. Mr. Chairman, you are exactly right. Can you get 
us some rain? We have a drought in southwest Louisiana. Rain is 
one of the mechanisms that will help wash our soils.
    We also need other aggressive techniques. Sometimes gypsum 
applied to the soils will then make it more agronomic. We are 
now involved in extensive studies on a pilot scale throughout 
the Ag Extension Service, and the Rice Experiment Station is 
doing work to determine what levels of salinity in the soils 
will allow a crop to be successfully grown.
    We are engaged in a number of venues of research, 
investigations. The best course is good rains with good runoff 
to allow that washing to occur. We are just not getting that 
right now.
    Mr. Gilchrest. The wildlife situation, especially the 
migratory waterfowl. Do you know whether or not the migrating 
waterfowl or red-cockaded woodpecker or a number of other of 
these species that have depended upon lower Louisiana--where 
are they now? Are they making out? Are they on golf courses? 
Are they doing OK? Where have they flown to? Are they starving? 
A general assessment.
    Mr. Moore. Excellent question. I appreciate you asking 
that. We had an average year for wintering waterfowl. We had a 
cold winter in the north, which brought them down. We had ample 
water and ample food.
    In time though the food resource is provided by our natural 
properties that grow natural plants and seeds, as well as that 
mosaic and matrix of agricultural or agronomic activities that 
provide feed for those waterfowl and other species.
    From the standpoint of the red-cockaded woodpecker, we have 
many mechanisms by which we will make cavities in older 
coniferous trees, typically long-leaf pines, and we augment 
those populations.
    We are engaged in a very aggressive and proactive program 
of engaging the private sector and their lands and hope that we 
can recover the red-cockaded sufficiently with the damage that 
was done. I think that we are on track there.
    Mr. Gilchrest. All right.
    Mr. Moore. Waterfowl over time will detriment if we don't 
plant our agricultural fields and our properties that we manage 
with natural vegetation do not produce grains and greenery.
    Mr. Gilchrest. Thank you very much.
    Did you have any other questions, Mr. Pallone? Frank has a 
question.
    Mr. Pallone. I just wanted to ask. I could ask Mr. Don 
Young initially, and then if anybody else wants to answer it.
    When we were talking about this leave-it-alone approach 
with hazardous waste, I just wanted to ask the same thing with 
regard to harmful invasive species because when you have the 
hurricane they might be established easier after a natural 
disaster and so I just wanted to ask what you would think about 
a leave-it-alone approach or case-by-case with regard to 
invasive species, you know, the same type of question.
    Mr. Young. Let me provide some clarification to your 
earlier question.
    Mr. Pallone. Sure.
    Mr. Young. With respect to the leave-it-alone concept, what 
I was speaking to primarily, more specifically to, is that 
there are certain biodegradable materials, such as timber and 
things like that, that will naturally degrade with time that 
don't have toxic implications.
    We would certainly not be advocating leave-it-alone where 
you have particularly notorious toxic chemicals out there, for 
example, that may be problematic, so I just wanted to make that 
clarification.
    Mr. Pallone. Sure.
    Mr. Young. Now, with regard to the invasive species issue 
that is a significant concern not only with regard to plant 
species, but also with regard to animal species. Our colleagues 
here from the State of Louisiana can speak to that, but we are 
very actively involved as a conservation organization in terms 
of advocating control of invasive species where it is feasible.
    They are extremely productive and aggressive in their 
growth and can cause significant problematic issues for 
indigenous wildlife and other plant species, so our view on 
that is to look for opportunities for controlling invasive 
species.
    Mr. Pallone. Does anybody else want to comment?
    Mr. Moore. Yes, sir, I would like to. Parke Moore, Wildlife 
and Fisheries. We are very much concerned from both aquatic 
invasives and also terrestrial flora and fauna. I will give you 
one example, and that is the Chinese tallow tree.
    These types of invasives come in. They are not normally in 
the food chain. They do well. They are not eaten up. They then 
spread. They then become monotypic. They cover the ground. It 
precludes other beneficial plants from coming up.
    In our areas, particularly in southeast Louisiana where we 
sustained heavy timber damage, we are going to have those 
invasives to come in, and Chinese tallow tree is one. We are 
going to seek substantial assistance wherever we can to combat 
that establishment and allow for our natural species, our plant 
species, to then develop an understory which will then 
constitute an overstory in our 20 to 40 year establishment of a 
forest.
    We have to get our natives established, and these types of 
invasives will come in, will shadow out and shelter out any of 
the good plants and will not provide any kind of habitat or 
home for our animals.
    As we have seen in southwest Louisiana, these invasives 
species on terrestrial habitats have been not only established 
on the periphery of areas. They have begun to infiltrate and 
migrate into the centers of our forests and marshlands, so, 
yes, invasives is a major concern to the State of Louisiana.
    Mr. Hirsche. Yes. I would just like to add that as I think 
you probably know, invasive species are a top threat to the 
refuge system, and whenever you have disturbed habitat you are 
looking at the threat of invasives establishing a real 
foothold.
    When we are talking about habitat restoration, we should be 
thinking that funding in part as a way to reduce the level of 
invasive infestation.
    Mr. Daulton. And I would just like to add that the invasive 
species management would be included in the habitat management 
portion of the funding so that that is not included in the 
current President's budget request.
    I think that what you have heard on the panel underscores 
how important that problem will be to address and in addition 
to that underscores the importance of that additional funding.
    Mr. Pallone. OK. Thank you.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Gentlemen, thank you for your testimony. We hope to see you 
down in the Gulf fairly soon. Thank you for your time and your 
effort and your skill and your passion for what you do.
    The hearing is adjourned.
    [Whereupon, at 1:25 p.m. the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
